<html>
<title> - [H.A.S.C. No. 116-19]NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN THE INDO-PACIFIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-19]

                      NATIONAL SECURITY CHALLENGES
                      AND U.S. MILITARY ACTIVITIES
                          IN THE INDO-PACIFIC

                               __________

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                             MARCH 27, 2019

                                     
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-880 PDF                 WASHINGTON : 2020  




                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                Matt Rhoades, Professional Staff Member
                  Kim Lehn, Professional Staff Member
                          Rory Coleman, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Abrams, GEN Robert B., USA, Commander, United Nations Command/
  Combined Forces Command/U.S. Forces Korea......................     8
Davidson, ADM Philip S., USN, Commander, U.S. Indo-Pacific 
  Command........................................................     5
Schriver, Hon. Randall G., Assistant Secretary of Defense for 
  Indo-Pacific Security Affairs, Department of Defense...........     3

                                APPENDIX

Prepared Statements:

    Abrams, GEN Robert B.........................................    99
    Davidson, ADM Philip S.......................................    58
    Schriver, Hon. Randall G.....................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [Responses provided were classified and retained in committee 
      files.]

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................   120
    Mr. Langevin.................................................   117
    Mr. Rogers...................................................   119
    Ms. Stefanik.................................................   120
    Mr. Thornberry...............................................   117


 
           
        NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES 
                         IN THE INDO-PACIFIC

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 27, 2019.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I call the meeting to order.
    Before we get started, one housekeeping item in terms of 
how we do the questioning. As you know, when the gavel drops, 
if you are here, you are on the list. If you are not here for 
the gavel, you then go to the back of the list.
    But then, the confusing thing is, if you leave, as a number 
of people are going to do and they are--I should drag this out 
so you guys can't leave as soon as you want to leave. But I 
wouldn't do that to our witnesses. At that point, you are on 
the list, so whenever you come back, you get in line.
    But that creates an inconvenient situation in that I--you 
know, we are thinking somebody is next, then literally 2 
minutes before it is their turn, if you come back and you are 
in line, you get to bump that person. So if you are sitting 
there thinking you are next, then all of a sudden somebody else 
gets called on, it is because somebody else came back in those 
couple of minutes.
    And that is in the rule. That is in the committee rule. So 
if you are here for the drop of the gavel, you are in line, and 
it is your turn, whenever you come back, assuming you are in 
line, you get to jump anybody else who was there. Personally, I 
am not in love with that rule, but then again, I approved it. 
So we will think about that for the future, but that is the way 
it works.
    I say that also because, once again, we have a classified 
hearing after this. We are going to try to stop at noon. I will 
try to get people in who are here, but if somebody comes 
creeping back in at 11:57, that complicates things.
    So we are going to try to stop at noon, try to start the 
classified hearing immediately thereafter, but it will be 
sometime between noon and 12:15. I am sure our witnesses were 
fascinated by that.
    Mr. Larsen. Mr. Chairman.
    The Chairman. Yes.
    Mr. Larsen. On behalf of the members of the T&I 
[Transportation and Infrastructure] Committee, I have to go to 
markup and vote. We appreciate you covering for us. Thank you.
    The Chairman. Sure. You will be missed, but we appreciate 
your giving us a heads-up.
    Okay. We have our posture hearing this morning with the 
U.S. Indo-Pacific Command and U.S. Forces Korea. Our witnesses 
are the Honorable Randall Schriver, Assistant Secretary of 
Defense for Indo-Pacific Security Affairs, Department of 
Defense; Admiral Philip S. Davidson, Commander of the U.S. 
Indo-Pacific Command; and General Robert Abrams, Commander 
United Nations Command, Combined Forces, U.S. Forces Korea. 
Welcome, gentlemen. Appreciate you being here. Appreciate your 
service and look forward to your testimony.
    Obviously, the Pacific region is a critical region. Both 
President Obama and President Trump have emphasized our need to 
place greater emphasis on the Indo-Pacific region, and, you 
know, we look forward to hearing about all of the issues around 
there. Obviously, China is the largest issue working with them, 
but also, working with countries around them to make sure that 
they are playing by the rules and are respecting their 
neighbors.
    I think the number one most important thing is it is 
crucial to maintain a strong U.S. presence in the Indo-Pacific 
region. I think our presence brings stability and makes it more 
likely that it is going to be a peaceful and prosperous place.
    Crucial to that, also, is building alliances. Our presence 
alone doesn't work unless we have friends and allies in the 
region who want us there, who see us being there as an asset to 
their interests. I believe we can do that, and I think we have 
done a good job of it.
    I want to particularly emphasize, as you note, this is the 
first year that is the Indo-Pacific Command change that we made 
in the authorizing bill last year to reflect the rising 
importance of India to our role in the region. I think the 
improvement of our relationship with the nation of India is one 
of the most positive developments in foreign relations over the 
last several years. I hope we can build on that and improve 
upon that.
    The most pressing questions we are going to have today is 
how do we deal with China on a wide range of issues, and 
militarily, what do we need to do to make sure that we have the 
equipment we need to adequately deter them from doing things 
that we don't want them to do? And then, as I said, how are we 
doing in terms of working with other key players in the region 
to form alliances to contain that threat?
    Then, of course, we have North Korea. Without question, the 
situation has improved in the last couple of years. I have had 
numerous people say that tension on the Korean Peninsula is 
lower than it has been probably since the end of the Korean 
war--sorry, since the ceasefire that happened in the Korean 
war, since it has not actually ended at this point. I am 
curious as to your thoughts of how we build upon that, how we 
continue to increase the stability, and hopefully eventually 
get to the point where we have a denuclearized Korean 
Peninsula.
    With that, I will turn it over to the ranking member, Mr. 
Thornberry, for his opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    And let me add my welcome to our witnesses. We appreciate 
you all being here today.
    I think, in a lot of ways, some of the most important 
statements were on the first page of the written testimony that 
Admiral Davidson submitted where he talks about what we have 
accomplished over the last 70 years, liberating hundreds of 
millions of people, lifting billions of people out of poverty.
    What has helped accomplish that, or what has provided the 
foundation for that progress is commitment of free nations to 
work together, which I believe is your engagement, Mr. 
Chairman, as well as the credibility of the combat power of 
Indo-Pacific Command and a robust and modern nuclear deterrent.
    On the next page, I will read one sentence: U.S. power 
underpins the post-World War II international system that helps 
strengthen the essential foundations of a rule-based 
international order for economic growth and prosperity in the 
region for everyone.
    I think that is absolutely true in the Indo-Pacific. I 
think it is absolutely true in the rest of the world, too. And 
what I worry about is that we take some of those things for 
granted, and could let them deteriorate with consequences that 
will result in a darker, more dangerous world.
    Sometimes I think we need to just remember the basics, and 
part of the basics is strong U.S. military presence and 
engagement are the key, not only in this region, but maybe as 
importantly as anywhere in this region, given what we see 
coming with China and the other challenges.
    So we will go down into a lot of details about what that 
means for 2020 bill, et cetera, but I just think it is 
important to remember that combat power, that nuclear 
deterrent, that engagement have been very successful for 70 
years, and we should not take those things for granted.
    I yield back.
    The Chairman. Thank you.
    Mr. Schriver.

 STATEMENT OF HON. RANDALL G. SCHRIVER, ASSISTANT SECRETARY OF 
   DEFENSE FOR INDO-PACIFIC SECURITY AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Secretary Schriver. Good morning. And thank you, Mr. 
Chairman. Thank you, Ranking Member Thornberry, and 
distinguished members of the committee. I am very pleased to be 
here this morning to talk about our defense work in the Indo-
Pacific, and particularly honored to be sitting with my great 
colleagues, Admiral Davidson and General Abrams.
    Our vision for a free and open Indo-Pacific, we believe, 
will be made possible--it can only be made possible with a 
robust military presence and combat credibility. We believe 
this vision and our aspirations are durable if we achieve those 
aims, because they are founded on important principles that are 
widely shared and have benefited all the countries of the 
region and beyond.
    These principles include respect for sovereignty, peaceful 
dispute resolution, free, fair, and reciprocal trade, and 
adherence to international norms and rules. Though China has 
benefited as much as any country, perhaps more from this order, 
China, under the current leadership of Xi Jinping, seeks to 
undermine this rules-based order and seeks a more favorable 
environment for its authoritarian governance model.
    China, of course, is not alone. We see other challenges. 
Russia is an authoritarian actor seeking to undermine the 
rules-based order. We see North Korea and their continuing 
dangerous behavior. We see backsliding toward illiberal 
governance in key countries, such as Myanmar and Cambodia, 
which challenges norms related to human rights, religious 
freedom, and dignity.
    We see the persistent and evolving threats by non-state 
actors, including terrorism and criminal enterprise. And we see 
the persistent threat from nontraditional transnational 
threats, such as those emerging from natural disaster and 
changes to our climate.
    China's ambitions, though, are of pressing concern as the 
CCP [Chinese Communist Party] seeks a different order. In the 
security domain, China devotes very significant resources to 
eroding our advantages and threaten our interests. There is, 
perhaps, no better example of this than Chinese actions in the 
South China Sea.
    Despite Xi Jinping's pledge made in the Rose Garden of the 
White House in 2015, China has militarized the South China Sea 
with the deployment of coastal defense cruise missiles and 
long-range surface-to-air missiles, and they threaten our 
interests as a result.
    We have a specific response, of course, in the South China 
Sea. Admiral Davidson and his forces fly, sail, and operate 
where law allows. We encourage other countries to do the same, 
either alongside us or unilaterally. But nonetheless, we are 
concerned with China's drive for a different security 
architecture in the region.
    And this matters, because if the CCP's authoritarian 
approach becomes ascendant, we could expect several trends that 
would be unfavorable to us. We could see a weakening of 
sovereignty and a potential loss of access to global commons. 
We could see an erosion to our system of alliances and 
partnerships.
    We could see an undermining of ASEAN [Association of 
Southeast Asian Nations] and its member states. And we could 
see a diminishment of respect for individual and human rights, 
and, potentially, even the normalization of the brutal 
repression underway in places such as Xinjiang and Tibet.
    Our policy response at the Department of Defense is through 
implementation of the National Defense Strategy, which outlines 
how we will effectively compete with China. This strategy has 
three major lines of effort. The first is to build a more 
lethal and resilient joint force, and, of course, this must 
take into account, as a pacing mechanism, China's and Russia's 
ambitions, their pace of modernization, and the growth in their 
capabilities.
    The second line of effort is strengthening alliances and 
partnerships. This is really a core advantage that the United 
States has. It not only enables our forward presence, but it 
also gives us partners who are more capable themselves in 
defending their own interests, and contributing to upholding 
regional security. A key example of this is the work we are 
doing with the help of Congress through the Indo-Pacific 
Maritime Security Initiative.
    Our third line of effort is reforming the Department for 
greater performance and affordability. And accordingly, this 
focuses on efforts to promote innovation, protect key 
technologies, and to harness and protect the national security 
innovation base to maintain our advantages.
    I should note, the National Defense Strategy talks about 
competition, not conflict, with China. Competition does not 
preclude cooperating with China where our interests align. And 
as we compete with China, we will continue to seek a military 
relationship with China that aims at reducing risk, and 
continues to push China towards compliance with international 
norms and standards.
    We at the Department of Defense support our interagency 
approach to China, including efforts to counter China's global 
influence. And we are very supportive of our State Department 
and efforts such as the BUILD [Better Utilization of 
Investments Leading to Development] Act, which was another 
tremendous example of our work with Congress to give us better 
tools in this competitive environment.
    So to close, we work at the Department of Defense, along 
with our colleagues in uniform, to implement the National 
Defense Strategy framework to ensure we are on the trajectory 
to compete, deter, and win in our priority theater, the Indo-
Pacific.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Schriver can be found 
in the Appendix on page 49.]
    The Chairman. Thank you.
    Admiral Davidson.

STATEMENT OF ADM PHILIP S. DAVIDSON, USN, COMMANDER, U.S. INDO-
                        PACIFIC COMMAND

    Admiral Davidson. Good morning, Chairman Smith, Ranking 
Member Thornberry, and distinguished members of the committee. 
Thank you for providing Assistant Secretary Schriver, General 
Abrams, and myself the opportunity to appear before you today 
to discuss the Indo-Pacific region.
    I am also joined by Command Sergeant Major Tony Spadaro of 
Indo-Pacific Command as well, and I am so glad he is here with 
us today.
    Let me say thank you for the significant support we have 
received from Congress over the last 2 years. The temporary 
relief from the Budget Control Act and an on-time fiscal year 
2019 budget helped to restore the military readiness and the 
lethality necessary to safeguard vital U.S. national interests 
in the Indo-Pacific. But there is, indeed, more work to do.
    The Defense Department's proposed fiscal year 2020 budget 
will help the Department address the challenges described in 
the National Defense Strategy, and ensure our military remains 
the most lethal force in the world. And this funding is 
critical to sustaining the readiness recovery while also 
increasing joint force lethality as we return to a great power 
competition with both China and Russia.
    It bears repeating from what Chairman Thornberry read from 
my written statement earlier. For more than 70 years, the Indo-
Pacific has been largely peaceful. This was made possible by 
the willingness and commitment of free nations to work together 
for a free and open Indo-Pacific, the credibility of the combat 
power of U.S. Indo-Pacific Command [INDOPACOM] working with its 
allies and partners, and, of course, the credibility of our 
nuclear deterrent as well.
    Our Nation's vision for a free and open Indo-Pacific 
demonstrates our continued commitment to a safe, secure, and 
prosperous region that benefits all nations, large and small. 
And it continues to place strong alliances and partnerships as 
the foundation of our approach to the region.
    The vision of a free and open Indo-Pacific includes a 
whole-of-government approach with economic, governance, and 
security dimensions, and it resonates with our allies and 
partners across the region.
    Indeed, we are seeing a general convergence around its 
importance as Japan, Australia, France, New Zealand, and India 
have all put forth similar concepts or visions, and Indonesia 
is leading an effort within ASEAN to elaborate one as well.
    As the primary military component of the United States 
efforts to ensure a free and open Indo-Pacific, U.S. INDOPACOM 
works with the rest of the U.S. Government and a constellation 
of like-minded allies and partners to advance our shared 
vision.
    Now, there are five key challenges that I believe threaten 
that vision and our U.S. national interests. First, until the 
nuclear situation is resolved on the peninsula, North Korea 
will remain our most immediate threat. The recent summit in 
Vietnam clearly identified the U.S. and DPRK [Democratic 
People's Republic of Korea] negotiating positions, narrowed the 
gap on a number of issues, and made clear that the United 
States expects final, fully verified denuclearization of the 
DPRK. The outcome of the summit also reinforces the need for 
General Abrams and I to maintain the readiness of our joint and 
combined forces on and off the peninsula.
    China, however, represents the greatest long-term strategic 
threat to the United States and, indeed, the region. Through 
fear and coercion, Beijing is working to expand its form of 
communist/socialist ideology in order to bend, break, and 
replace the existing rules-based international order and 
prevent a free and open Indo-Pacific.
    In its place, Beijing seeks to create a new international 
order led by China, with Chinese characteristics, an outcome 
that displaces the stability and peace of the Indo-Pacific that 
has endured for over 70 years.
    China is using a variety of methods, including pernicious 
lending schemes, like the One Belt One Road, and promising 
loans or grants to extend their diplomatic and political reach 
by gaining leverage against the borrowers' sovereignty.
    This is happening in the Pacific Islands with their South-
South initiative, as well as closer to home here in the United 
States, wherein just over a year, 17--17 Latin American 
countries have signed on to One Belt One Road.
    The PRC's [People's Republic of China's] military 
activities expanded last year with the placement of antiship 
cruise missiles, surface-to-air missiles, and radar jammers on 
disputed militarized features in the South China Sea in April 
of 2018. And today, they continue testing and development of 
advanced capabilities like fifth-generation aircraft, 
hypersonics, aircraft carriers, and counter-space technologies.
    I am also concerned about the growing malign influence of 
Russia throughout the region. Moscow regularly plays the role 
of spoiler, seeking to undermine U.S. interests and oppose--and 
impose additional costs on the United States and our allies 
whenever and wherever possible.
    Terrorism and other non-state actors also pose threats to 
our vision of a free and open Indo-Pacific, as they seek to 
impose their views and radicalize people across the region, as 
evidenced in 2017 when ISIS [Islamic State of Iraq and Syria] 
captured the southern Philippine city of Marawi, a city of more 
than 200,000 people.
    Lastly, the Indo-Pacific remains the most disaster-prone 
region in the world. It contains 75 percent of the Earth's 
volcanoes. Ninety percent of earthquakes around the globe occur 
in the Pacific Basin, and many countries across the region lack 
sufficient capability and capacity to manage natural and 
manmade disasters.
    To address all of the challenges I mentioned, U.S. 
INDOPACOM is focused on regaining our competitive military 
advantage to ensure a free and open Indo-Pacific over the short 
and long term. We must field and sustain a joint force that is 
postured to win before fighting, and if necessary, ready to 
fight and win.
    U.S. INDOPACOM's ability to prevail in armed conflict is 
the foundation of the combat credible deterrence and our 
ability to compete. By fielding and maintaining a joint force 
ready to fight and win, we reduce the likelihood that any 
adversary will resort to military aggression, to challenge, or 
undermine the rules-based international order.
    To meet this demand, my top five budget needs are focused 
on the following: Increasing critical munitions; advancing our 
high-end warfare capabilities, like long-range precision fires; 
enhancing and improving our persistent, integrated air and 
missile defenses; evolving our counter-unmanned aerial systems 
capabilities; and by continuing to develop the exquisite set of 
tools uniquely provided by the Strategic Capabilities Office, 
DARPA [Defense Advanced Research Projects Agency], and our 
service research labs. These deliberate actions will help 
ensure a free and open Indo-Pacific and deny those who seek to 
undermine it in both peace, below the level of conflict, and in 
war.
    I must add that our five Indo-Pacific treaty allies, in 
Japan, Korea, Australia, the Philippines, and Thailand, they 
have all been steadfast in their support for a free and open 
Indo-Pacific.
    Let me close by saying our ability to ensure a free and 
open Indo-Pacific is only possible with your support, so I 
would, again, like to thank this committee for your continued 
support to the men and women of U.S. Indo-Pacific Command. 
Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Davidson can be found in 
the Appendix on page 58.]
    The Chairman. Thank you, Admiral.
    General Abrams.

   STATEMENT OF GEN ROBERT B. ABRAMS, USA, COMMANDER, UNITED 
   NATIONS COMMAND/COMBINED FORCES COMMAND/U.S. FORCES KOREA

    General Abrams. Good morning, Chairman Smith, Ranking 
Member Thornberry, and distinguished members of the committee.
    I have had the privilege to serve in this position as the 
Commander of United Nations Command, Combined Forces Command, 
and U.S. Forces Korea for just over 120 days. In that short 
time I have assessed that the ROK [Republic of Korea]-U.S. 
military alliance is stronger than ever.
    Our combined force is a strategic deterrent postured to 
respond to potential crisis and provocation, and if called 
upon, ready to defend the Republic of Korea and our allies in 
the region.
    Today in Korea, we have tremendous opportunities before us, 
as well as some great challenges. Ongoing diplomatic engagement 
between South Korea, North Korea, and the United States has led 
to a significant reduction in tension compared to the recent 
past marked by missile launches and nuclear tests.
    Diplomacy is creating the opportunity for North Korea to 
choose the path of denuclearization, forge a lasting peace, and 
to build a better future for its people. And while diplomacy is 
not without its challenges, it remains the mechanism 
underpinning the transformation we have witnessed over the past 
14 months as we have moved from provocation to detente.
    The first steps toward creating a better future for all 
Koreans have already begun. We have witnessed multiple 
Presidential summits, inter-Korean dialogue, and international 
support to sanctions.
    The steps agreed to last April at Panmunjom and specified 
later in the comprehensive military agreement, combined with 
the aforementioned diplomatic efforts, have all contributed to 
a marked reduction in tension on the peninsula, and created 
mechanisms for the development of cooperation and confidence 
building, essential ingredients to the incremental process of 
making history on the peninsula.
    Still, I remain clear-eyed about the fact that despite a 
reduction in tensions along the demilitarized zone, and a 
cessation of strategic provocations, coupled with public 
statements of intent to denuclearize, little to no verifiable 
change has occurred in North Korea's military capabilities.
    For instance, we are watching the ongoing Korea People's 
Army winter training cycle, including a slate of full-spectrum 
exercises, which is progressing along at historic norms, 
meaning that we have observed no significant change in the 
size, scope, or timing of their ongoing exercises compared to 
the same time period over the last 4 years.
    Further, North Korea's conventional and asymmetric military 
capabilities, along with their continued development of 
advanced conventional munitions and systems, all remains 
unchecked. These capabilities continue to hold the United 
States, South Korea, and our regional allies at risk. As such, 
I believe it is necessary to maintain a postured and ready 
force to deter any possible aggressive actions.
    Fielding our force in Korea requires a foundation of 
support and sustainment to meet warfighter needs. Today, that 
foundation is sound. It serves as the bedrock from which we 
deter aggression and ensure stability, not only on the Korean 
Peninsula, but in northeast Asia.
    Our posture allows us--allows our diplomats to speak from a 
position of unquestioned strength as they work to achieve 
enduring peace and final, full, verified denuclearization of 
the DPRK.
    I also want to thank you for the support we have received 
from Congress over the last 2 years as we have significantly 
improved the posture and readiness of our forces on the 
peninsula from munition stocks to additional ballistic missile 
defense capabilities, and much more.
    I cannot underscore enough the importance of the on-time 
appropriation in 2019, as it has enabled us, for the first time 
in many years, to make smarter investments, improve our 
planning, and provide predictability to our commanders in the 
field so they can sustain the hard-earned readiness that is 
essential for being a ``fight tonight'' force.
    With the support of Congress, the recently submitted fiscal 
year 2020 budget continues the work of improving and sustaining 
our defense posture. The readiness required to be a credible 
deterrent is perishable. We must continue to exercise the core 
competencies necessary to the planning and execution of joint 
and combined operations under the strain of crisis.
    However, we must also strike a balance between the need to 
train and the requirement to create space for diplomacy to 
flourish. As such, we have innovated our approach to training 
and exercises by tuning four dials that modify exercise, 
design, and conduct: size, scope, volume, and timing. 
Adjustments to these dials enable us to remain in harmony with 
diplomatic and political requirements without sacrificing 
warfighting requirements and warfighting readiness to 
unacceptable levels.
    Our combined forces, Republic of Korea and the United 
States, recently completed a significant step in our evolution 
by conducting the first of our combined command post exercises, 
Dong Maeng 19-1. Earlier this month, we exercised tactical, 
operational, and strategic competencies to be prepared should 
the call come to respond to crisis, defend the Republic of 
Korea, and prevail against any threat.
    This training is built upon the relationships, lessons 
learned, and staff interactions derived from many combined 
training and exercise events conducted by our components and 
the Republic of Korea counterparts throughout the year.
    The ROK-U.S. alliance remains ironclad. It has been tested 
multiple times over the last 65 years, and only becomes 
stronger. Our military partnership continues to deepen and 
broaden the longstanding relationships that exist at every 
echelon.
    On behalf of the service members, civilians, contractors, 
and their families on the peninsula, we thank all of you for 
your unwavering support. And I am extremely proud to be their 
commander and to work hand in hand with the Republic of Korea 
to protect our great nations.
    Mr. Chairman, I look forward to answering your questions. 
Thank you.
    [The prepared statement of General Abrams can be found in 
the Appendix on page 99.]
    The Chairman. Thank you very much.
    As you mentioned, as I think all of us mentioned, our 
presence in the region is very important, and that presence 
takes on many forms, but certainly in Japan and Korea, we have 
troops forward stationed there. There has been talk about, you 
know, cost sharing, how much the countries that we have our 
troop presence in pay.
    Now, we, in my view, get an enormous benefit from that 
presence. But just for the record, are you satisfied right now 
that our partners in the region are paying their fair share of 
what the cost should be for our troops being there? Mr. 
Schriver, if you want to start with that.
    Secretary Schriver. I am, and I think the deals that have 
been struck to date have been mutually beneficial with our 
allies and ourselves. Of course, we are entering new 
negotiations shortly with both countries, and I expect the same 
outcome, that we will get something mutually beneficial.
    The Chairman. And there has been talk about this cost-plus-
50 idea. It is just a rumor. No one has confirmed it. But just 
for the record, I assume you would think that not a good idea, 
and not a good approach to our negotiations?
    Secretary Schriver. I have seen discussion mostly in the 
media. It is not anything we have been directed to seek, and it 
is not part of any formal guidance. And, again, I think our 
presence view on burden sharing is known. We think there should 
be burden sharing, but we will leave that to the negotiation 
when the time comes.
    The Chairman. So you--would you directly comment on the 
idea that cost-plus-50, is that a good idea or a bad idea?
    Secretary Schriver. Well, we haven't been directed to do 
it. I think we will try to seek a good deal for the United 
States obviously, but I think it won't be based on that formula 
that I am aware.
    The Chairman. Okay. And just for the record, a number of 
the members of this committee, bipartisan, have expressed their 
concern that that approach would drive a wedge between us and 
our allies, which we don't need to do.
    All of you mentioned the importance of our alliances. Mr. 
Thornberry, I think, articulated it best on the international 
treaties. Basically, you know, countries with democracies 
working together to promote that greater freedom in the region 
reaches the greatest prosperity.
    What are the most important steps that we could take to 
shore up the various international treaties, organizations, in 
the Indo-Pacific region, and what countries are most important 
to expand upon those relationships? What can we do to enhance 
that level of cooperation in that rules-based democratic 
approach to the region? Go ahead.
    Secretary Schriver. Well, thank you.
    I think we are not only strengthening traditional alliances 
and making investments with our traditional allied partners, 
but we are expanding the network. And India was mentioned, I 
think, in the opening comments, as a great example of a 
partnership that we are investing a lot in. We have had our 
first two-plus-two. We are making great strides in the defense 
relationship.
    But I would say throughout maritime Southeast Asia, 
Vietnam, for example, is a country that is concerned about 
their own sovereignty, concerned about freedom of the seas, and 
the South China Sea. We have expanded our defense relationship 
with the support of Congress there. I think there are a number 
of emerging partners. The Philippines, traditional ally. We are 
strengthening that relationship.
    So I see a lot of opportunity, and with my colleagues here, 
we are investing across the board when we can because we see a 
strong demand signal. There is concern about the erosion of 
these fundamental principles.
    Admiral Davidson. Sir, if I could just build on Assistant 
Secretary Schriver's point. Our values really compete well 
across the whole of the region, particularly when all that 
China has to offer is money. Our ability to expand those 
values, protect them absolutely, but expand them to others, I 
think, is going to be critically important as we seek new 
partners, and the whole of a free and open Indo-Pacific 
concept. It is going to require some work. It is at the heart 
of my engagements, I know. I know when Assistant Secretary 
Schriver travels through the region, he is doing that as well.
    The Chairman. So it is your sense that the authoritarian 
approach of China is really rubbing a lot of countries in the 
region the wrong way, and pushing them more towards us?
    Admiral Davidson. I think everybody recognizes that a 
country with a closed and authoritarian internal order would be 
a threat to a free and open international one, yes.
    The Chairman. And then just final question, are there 
countries in the region that you see as slipping toward--more 
towards China's influence that we need to work harder to try to 
pull back?
    Admiral Davidson. Well, two of the countries was mentioned 
by Assistant Secretary Schriver in his opening statement, and 
that is indeed Myanmar and Cambodia. These are places in which 
a whole-of-government approach that extends those values is 
going to be important. We are going to have to find the areas 
in which we can indeed compete with China there. It is going to 
be difficult.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Admiral, I want to go back to engagement 
for just a second. At the initiative of this committee in 
previous years, we have created an Indo-Pacific Stability 
Initiative. And the idea was you see that the European Defense 
Initiative was pretty successful, both in funding needed 
improvements, but also sending a message that we are here and 
we are coming with dollars, not just the Chinese, but we are 
coming, and we are committed to, in that case, of course, NATO 
[North Atlantic Treaty Organization] alliance.
    Now, I understand there are differences in the Pacific, but 
I am concerned that I don't believe the administration has 
requested a specific dedicated funding for this initiative, 
even though it is authorized in law now.
    Can you comment about the benefit, if any, that you see to 
having this sort of Indo-Pacific Stability Initiative [IPSI] to 
help make it--to help training, to help facilitate military 
cooperation in various ways, again, somewhat on the idea that 
we have pursued successfully in Europe.
    Admiral Davidson. Yes, sir. I think the ERI [European 
Reassurance Initiative] model has been very successful for 
porting resources and sending capabilities to Europe in a place 
in which there had been some capability and capacity withdrawal 
in the few years before that.
    While there has been no money either appropriated or asked 
for with the IPSI, the fact of the matter is I put down a 
pretty assertive issue nomination last year for some 
capabilities and capacity needed in the theater, and I think in 
the fiscal year 2020 budget you are seeing a down payment on 
that this year. Thanks.
    Mr. Thornberry. Well, I will just comment, Mr. Schriver, 
one of the requirements in last--in, I believe, last year's 
bill, was we need a plan from OSD [Office of the Secretary of 
Defense] about how you would fund various elements of this 
initiative. We hadn't gotten it yet. So you all work on that 
because we intend to pursue it.
    I just wanted to ask General Abrams briefly, you talked 
about North Korean military activities that are unchecked. What 
can you say in this format specifically about their production 
of missiles and nuclear weapons? Has there been a change? We 
know they have not tested. But in the production of nuclear 
weapons and material and missiles, has there been a change?
    General Abrams. Sir, we--their activity that we have 
observed is inconsistent with denuclearization, and we will be 
happy to go into as much detail as you want this afternoon 
during the closed session.
    Mr. Thornberry. Okay. Yeah. I just didn't know how far you 
could go in an open session, but I--that, I think, gives us a 
direction.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you to the witnesses this morning.
    Admiral Davidson, on page 14 of your written testimony, 
again, you talked about, again, some of the challenges for 
increasing joint force lethality. The undersea warfare 
provision, again, you, I think, very clearly stated sort of 
what is happening in that domain with, as you put it, 160 of 
the submarines in the Indo-Pacific region belong to China, 
Russia, and North Korea, and, again, as you go on to describe 
that is happening at the same time as our fleet size is 
shrinking.
    Again, just to finish that thought, Vice CNO [Chief of 
Naval Operations] Admiral Merz testified before Seapower 
yesterday, again, who just sort of walked through, our attack 
[submarine] fleet size right now is 51. And with the 
retirements of the Los Angeles class, it will be at 42 by 2026.
    So given the fact that, again, you don't get all of those--
that sub force, right. You get about 60 percent of it with the 
allocation to the Asia-Pacific--or Indo-Pacific region versus 
other combatant command areas there.
    You know, that trajectory, which Admiral Harris, your 
predecessor, described repeatedly in his visits to our 
committee over the years is a big concern. And obviously, it is 
not getting any better, I don't--I assume, based on your 
written testimony. Again, I wonder if you could talk about that 
a little bit.
    Admiral Davidson. Sir, the undersea domain, despite the 
capacity shortfalls, the number of submarines is an area in 
which we hold an asymmetric advantage over virtually, well, all 
our adversaries. It is a critical advantage that we need to 
extend.
    The capacity limitations as we go down over the course of 
the next several years, is, indeed, a threat to the day-to-day 
operations that I think we need to have in the theater for 
presence needs and risks our OPLANs [operation plans] to a 
certain extent as well. I would be happy to talk about more 
details as we get to this later session.
    Mr. Courtney. Sure. So Admiral Harris, in open session, 
actually testified that only about 50 percent of the stated 
requirements for subs can be met given, again, the fleet size 
today as opposed to where we are--I mean, that, again, that was 
open testimony. Is that still pretty much the state of play?
    Admiral Davidson. My day-to-day requirement is met by 
slightly over 50 percent of what I have asked for, yes.
    Mr. Courtney. Okay. So, you know, this committee actually 
tried to change that last year in terms of at least getting 
some uptick in terms of the build rate, which, again, the 
administration opposed, and it was therefore blocked. The new 
budget embraces that belatedly.
    And, again, just--it would help, I guess, the cause in 
terms of your choices that you have to make out there if, 
again, we move forward with a three-sub build rate for this 
year's budget year, which actually will not be executed until 
2023. And I just wonder if you could comment on that?
    Admiral Davidson. Yes, sir. I mean, it is doing our best to 
reverse the trend on the weight of force structure of 42 in the 
2026 timeframe is a critical need in the Indo-Pacific, yes.
    Mr. Courtney. Thank you.
    I would like to just change the subject for a minute to 
talk about, recently, the Coast Guard actually was part of a 
deployment in the Straits of Taiwan. The Coast Guard National 
Security Cutter Bertholf participated in that. And, again, I 
just wonder if you could talk about that part of a sea service 
in terms of helping, again, U.S. presence in international 
waters.
    Admiral Davidson. Yes, sir. The Bertholf is on deployment 
in the Western Pacific. It has been for several weeks now and 
will be for a few months to come as well. They are a very 
important party--partner with the U.S. Navy on really all 
things in the region.
    In fact, the mission that they were doing not long before 
the Taiwan Strait transit was helping us to enforce U.N. 
[United Nations] sanctions against North Korea, and the illegal 
transfer of oils from--in ship-to-ship transfers there in the 
East China Sea.
    The Coast Guard has key relationships across the region, 
particularly for a lot of nations that don't have militaries, 
but they have, perhaps, defense forces at even less and in some 
instances where there are just law enforcement forces. Because 
it really helps with key challenges that some of these nations 
have, whether it is illegal, unreported, and unregulated 
fishing, narcotics or human trafficking, maritime domain 
awareness.
    So they are an important contributor across the whole of 
the region. I have got a good relationship with Linda Fagan, 
my--the Coast Guard specific area commander and----
    Mr. Courtney. Again, real quick, we are about to--I just 
want to thank you for putting the spotlight on that. During the 
shutdown, there was this view that, you know, again, this was 
not part of the DOD [Department of Defense] fabric, and 
obviously what they are doing out there really rebuts that 
narrative.
    The Chairman. Thank you very much. The gentleman's time is 
expired. We will go to Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral, I am going to have to ask you a question 
concerning China's nuclear forces. And like the two prior 
questioners, as the chairman said, I am very much aware that we 
are going to have a classified session, but I am looking for a 
full nonclassified answer in this session, because as you know, 
as you give us information, it helps us formulate policy not 
just by ways in which we know, but by ways in which we can, in 
unclassified areas, be able to share the information with 
others as we advocate.
    I am going to follow on to the theme that Ranking Member 
Thornberry had of using our NATO alliance as a question that 
comes to us in this area. The United States has backed away 
from the INF [Intermediate-Range Nuclear Forces] Treaty with 
Russia, which is largely viewed more as a European issue than 
another theater issue; however, that we know that it also 
affects the--our relationship with China. And as we look to 
China's modernization of its nuclear forces, the INF is a 
relevant concern there.
    And we look at your testimony, page 6, China is undertaking 
hypersonic glide vehicles, electromagnetic railguns. And this 
is, I think, the most important sentence. You said Beijing is 
also modernizing and adding new capabilities across its nuclear 
forces.
    So here we have a near-peer adversary that is adding new 
capabilities across its nuclear forces, so this is not just a 
sustainment issue just trying to modernize what we have in our 
inventory that might be requiring updating. This is actually 
new capabilities that they are doing.
    You then go on to say that they have nuclear-powered 
ballistic missile submarine, which will be armed with JL-3 sea-
launched ballistic missiles; a road-mobile, nuclear, and 
conventional-capable intermediate-range ballistic missile; 
road-mobile intercontinental ballistic missile; and you go on.
    So my question relates to the United States is now leaving 
the INF, and it poses both an opportunity as we look to our own 
capabilities, but also an opportunity diplomatically.
    So would you please give us some characterization of the 
threat that China poses, and the intermediate-range missile 
threat; what operational importance non-INF compliant assets to 
the United States would represent in this changing environment; 
and then what would be the benefit of a possible Russia-China-
U.S. deal on inter nuclear--on an INF Treaty in that we know 
that when the United States entered into this, there were 
significant assets that were dismantled.
    So it is not as if we can just say we can't reach this 
because people have these assets. These treaties at times have 
even resulted in lessening conflict by destroying weapons 
systems. Admiral, could you give us a picture of that?
    Admiral Davidson. Thank you for the question, Congressman, 
a long question.
    China--let me put it this way: At the operational level, 
about 93 percent of China's total inventory, if they were a 
party to the INF, would be in violation of that treaty. These 
missiles number in the hundreds--and we can talk more 
specifically about that later today--and present a serious 
challenge to not just the United States, but all of our 
allies', partners' freedom of action in the region.
    Our, at the operational level, long-range precision fires 
are constrained to just air and sea assets right now. With a 
wider set of capabilities with the United States, you really 
present a problem to the Chinese, or the Russians, and you 
improve our freedom of action by presenting a like dilemma to 
them. So I think that is critically important.
    I need to add that Secretary Schriver should talk policy 
here a little bit.
    Secretary Schriver. With respect to any kind of future 
arrangement, of course, it is not under active consideration 
because we are not quite out of the treaty yet. But given the 
significance of China's capability falling in this range, 
certainly it would make sense to, if we were to go down that 
path of another agreement, to think about China being included. 
I can't see it being meaningful without China.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    Admiral Davidson and General Abrams--I apologize--last year 
I led an effort to ensure that we have a floor on our troops in 
U.S. Forces Korea. What do you think is the appropriate number 
of U.S. troops to have on the peninsula to maintain deterrence 
against Kim Jong-un?
    General Abrams. Congressman, our current troop levels that 
we have with both assigned and rotational forces is 
appropriate, and meets our requirements to provide an adequate 
and credible deterrent to the DPRK.
    Mr. Gallego. Admiral.
    Admiral Davidson. I fully agree with that.
    Mr. Gallego. Great. And I think this will be--I think you 
kind of already answered this next question, whether you can 
confirm that our force posture in Korea and Japan is designed 
to provide the best deterrence versus North Korea?
    Admiral Davidson. Yes, sir, I think our current force 
posture does do that. Of course, it takes other forces off the 
peninsula as well. And as General Abrams mentioned in his 
opening comments, the committee and the Department have done a 
lot in the last 2 years to make sure that capability is sound.
    Mr. Gallego. Thank you, Admiral.
    So with that in mind, let's go through some projects that 
the Pentagon has given us that could be rated to fund the 
President's border wall. And just please tell me if you think 
each project is more or less important than a wall on the 
southern border.
    $17.5 million for command-and-control facility at Camp 
Tango, Korea? Do you want me to just go through the four or do 
you want to go--I have about three more questions after this.
    General Abrams. I would appreciate the list, Congressman, 
and I am ready.
    Mr. Gallego. Sure. $53 million for a UAV hangar at Kunsan 
Airbase in Korea; $45.1 million for munition storage facilities 
in Guam; and $23.8 million for corrosion control hangar for C-
130s in Yokota, Japan. Are these more or less important than a 
border wall?
    General Abrams. Congressman, I can only speak to the two 
projects that are in Korea. They are certainly important to 
the--to U.S. Forces Korea, but it is inappropriate for me to 
make--[inaudible] some sort of judgment as we have got to take 
into account all of national security.
    I am responsible for providing a credible, properly 
postured force on the Korean Peninsula, and we would have to 
defer that to, you know, some--the Acting Secretary of Defense 
or----
    Mr. Gallego. I understand. I don't want to put you in a 
tough spot. But you would agree that at least those facilities 
that you are familiar with in Korea are very much necessary to 
force protection and deterrence on the peninsula, correct? 
Without making a judgment on the wall?
    General Abrams. Right. I am just pausing just for a second. 
So, not necessarily for force protection, but principally for 
command and control and sustainability, yes.
    Mr. Gallego. Excellent. Thank you, General.
    Mr. Schriver, we often hear about the need for munitions, 
the need for intelligence and surveillance, ISR [intelligence, 
surveillance, and reconnaissance] platforms, and the need for 
airlift and sealift to pull forces into the region quickly.
    General--I am going to mess up his name. General 
O'Shaughnessy told us in the Armed Services Committee last 
month that there is no military threat at the southern border. 
In light of that, why would the Department use money allocated 
for a real threat like China, or North Korea, to pay for a wall 
that doesn't help us with a real threat, versus a real threat?
    Secretary Schriver. I think as Secretary Shanahan, Acting 
Secretary Shanahan said yesterday, we have made arguments based 
on what we think our defense priorities are. We now have a 
lawful order from the President to execute, and we are looking 
how to best do that.
    Mr. Gallego. Thank you, Mr. Schriver.
    I think what I am trying to--and I am sure--you know, 
again, I don't want to put you in a difficult spot. The one 
thing I am trying to highlight is that we do have real threats, 
real threats that are existential threats, you know, to our 
alliances, to our country, and potentially to the world.
    And when we are choosing to use our military funds that are 
very limited and resources for something that is an imagined 
threat, I think that is a problem, especially for us on this 
committee.
    Mr. Schriver and Admiral Davidson, I understand that we are 
more frequently using freedom of navigation patrols to push 
back on illegal Chinese claims in the Pacific. What else can we 
do to ensure that China doesn't present us with a fait accompli 
as we think they are about to do, or they are willing to do, I 
should say?
    Secretary Schriver. I think they have changed some facts on 
the ground with the militarization of those outposts. Our goal 
is to make sure that that doesn't become a tool to 
operationalize an expansive, illegal sovereignty claim.
    So the freedom of navigation operations you mentioned are 
important. We have taken other steps, along with Admiral 
Davidson's predecessor. We disinvited China from RIMPAC [Rim of 
the Pacific Exercise] and pointed to their activities in the 
South China Sea as a reason for that.
    We have encouraged other countries to join in presence 
operations, joint patrols. And our responses in the future may 
not necessarily be on point. Their activities in the South 
China Sea could be met with consequence elsewhere, as I think 
was the case with RIMPAC. So we are intent on making sure that 
no one country can change international law or the norms.
    Mr. Gallego. Thank you.
    The Chairman. The gentleman's time is expired.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General, thank you. Following on that line of questions, Xi 
Jinping's statements, at any point in time, I don't think, can 
be taken at face value. You mentioned his comments in the Rose 
Garden in 2015. I can't believe that he didn't already know 
that they were going to, as you said, militarize those islands.
    China has a longer-term horizon than most of us. We go, you 
know, continuing resolution to continuing resolution or a year-
to-year budgeting. Each step of the way, they seem to allow 
some period of time to--for a new norm to establish itself. The 
new norm are these features, as Admiral Davidson refers to 
them. They have now been militarized.
    What do we think? What--can you share with us in this arena 
what you think the Chinese steps might be next in terms of 
trying to gain control? I think there was a dustup between them 
and Malaysia on one of their features recently. And are there--
can we see ahead what the Chinese might do next that we would 
need to try to counter and not let that become the new norm?
    Admiral Davidson. Sir, in the operational space, one of the 
things we are starting to see is a higher degree of integration 
with forces that are not actually on those features. So we are 
seeing fighter patrols, bomber patrols, the integration of ISR 
aircraft, intelligence, surveillance, reconnaissance, and ASW 
[anti-submarine warfare] aircraft actually operating from those 
bases, and a higher degree of interoperability between some of 
the base functions and the afloat forces that they have in the 
area as well.
    Mr. Conaway. So counters to that would be us continuing to 
operate in the international waters?
    Admiral Davidson. Certainly. Mr. Schriver mentioned earlier 
the importance of allies and partners operating with us in the 
region. That stepped up last fall, and I think was a critical 
factor in--and the international response there and some of the 
behaviors that we saw out of China in both the battlespace and 
the diplomatic space back in the fall. Now, I think that is 
going to be a critical approach going forward as to have our 
allies and partners operating with us in the region.
    Mr. Conaway. So without telling us what they are 
necessarily, are our crews, sailors, airmen, are they aware of 
what their self-protection steps should be, should something 
come up suddenly?
    Admiral Davidson. Yes, sir, absolutely. So I know Admiral 
Aquilino has met with his commanding officers a number of 
times, both in the Western Pacific and on the west coast of the 
United States. And I have talked directly with General Brown of 
Pacific Air Forces as well to make sure that everybody 
understands the authorities that they have and to be sure to 
ask for the authorities they need going forward.
    Mr. Conaway. All right. General Abrams, I suspect I know 
the answer to this, but you mentioned in your testimony that 
tensions on the peninsula have relaxed or seem reduced 
dramatically. North Koreans continue to exercise.
    Is there any sense among our Korean allies, South Korean 
allies that they are, you know, less likely to defend 
themselves? Are they becoming too relaxed or at risk of being 
unprepared should the North Koreans do something?
    General Abrams. Congressman, absolutely not. ROK military 
continues to train intensely at echelon, very capable, very 
highly trained, committed, dedicated professional force. They 
have not taken their foot off the gas.
    Mr. Conaway. All right. Thank you. Yield back.
    Mr. Langevin. Mr. Cisneros is recognized for 5 minutes.
    Mr. Cisneros. Thank you, gentlemen, for being here this 
morning.
    Thank you, Mr. Chairman.
    I just kind of want to follow up on that question as far as 
we go with the training. You know in the military, drilling 
exercises, train, train, train, kind of like our piano teachers 
told us if we took piano lessons, practice makes perfect. That 
is what we are striving for.
    So if we are canceling or downgrading some of these 
exercises that we have traditionally done to prepare, you know, 
our forces there on the Korean Peninsula, how are we making 
that up? How are we continuing the training? How are we 
continuing to make sure our prime operation to make sure that 
we are ready?
    General Abrams. Congressman, thanks for the opportunity. 
First, let me clear up some misinformation. I assumed command 
on the 8th of November. Just since November, as of last week, 
we have conducted 82 combined ROK-U.S. military field training 
exercises at appropriate echelons. So, training has continued, 
combined training has continued.
    In terms of large-scale exercises, everyone is well aware 
that last fall we--or last August, we postponed one of our two 
annual exercises. The Secretary of Defense, Secretary Mattis, 
challenged me to be creative and innovative, develop an 
exercise regime that meets our warfighting readiness 
requirements while simultaneously creating and preserving space 
for diplomacy to work.
    Worked hand in glove with the ROK chairman in December, 
crafted this new construct adjusting four dials, size, scope, 
volume, and timing of these exercises. We briefed them up our 
respective chains of command, had them approved, and then we 
have recently executed it.
    We met all our training objectives, trained all our 
mission-essential tasks, validated our command, control 
communications and ISR plans, and validated the alliance 
decision-making process. Very rigorous, tough, demanding 
command post exercise that is driven by simulation.
    And I am happy to go into more detail in the classified 
session as to what made it so rigorous and so forth, but we are 
a trained and capable force ready to meet our treaty 
obligations.
    Mr. Cisneros. Are we continuing joint training operations 
with our naval forces in the region too, and with our Marines 
and the Air Force as well?
    General Abrams. Sir, absolutely we are. And the biggest 
difference is we just don't talk about it publicly.
    Mr. Cisneros. All right. And then just to kind of follow up 
on that, the President says he is canceling these exercises. We 
are saving $100 million. That money has already been 
appropriated for your training and operations. What are we 
doing with that $100 million that we are saving when he is 
canceling these operations?
    General Abrams. Congressman, I can't speak--I know what has 
been executed, what has been planned for, programmed for for 
U.S. Forces Korea, and we are executing our appropriated budget 
as we have planned and programmed.
    Mr. Cisneros. Mr. Schriver, do you have any idea what we 
are doing with the $100 million that we are saving there by 
canceling these operations?
    Secretary Schriver. We are, at the request of Congress, 
looking at the cost differential between the previous exercises 
and our program now. I am not aware that we have a plan for 
specifically what to do if there is a significant cost 
differential and how we would use that money.
    Mr. Cisneros. I yield back the remainder of my time.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And, General Abrams, I have several questions for you, but 
thank all three of you for your service to our country in your 
various capacities.
    This committee has worked hard to approve a joint emergent 
operational need [JEON], to provide enhanced missile defense 
capability to our forces on the Korean Peninsula. Over the past 
year, what progress has been made on the specific JEON efforts 
to enhance missile defense?
    General Abrams. Congressman, thanks very much for that. And 
we are grateful for the support from the Congress of the United 
States on that joint operational needs statement.
    Principally, three capabilities. All three remain in 
development. They are all on time right now. The first and most 
important capability is slightly ahead of schedule, and we hope 
to have it fielded here in the next 12 to 16 months.
    Mr. Lamborn. Excellent. Thank you.
    And then what is the status of the revised missile 
guidelines with our South Korean allies? And what is their 
planned path forward on missile development? And how do we 
factor that into joint operational planning?
    General Abrams. Congressman, I think if I have your 
question right, that is one of the capabilities that is part of 
our Conditions-Based OPCON [Operational Control] Transition 
Plan.
    In an unclassified setting, their progress continues on 
track. They have a plan; it has been resourced in their budget. 
And I am happy to provide some additional information this 
afternoon in a closed session if you desire.
    Mr. Lamborn. Okay. I will look forward to that. Thank you.
    Now, with Admiral Davidson I have a question. In the issue 
of readiness, if we have a conflict with a peer competitor in 
the INDOPACOM theater, do we have enough ammunition stocks on 
hand and prepositioned to fight and win a war? And along with 
that, how much supply do we have, and what are our risks if we 
don't have enough on hand, prepositioned?
    Admiral Davidson. Sir, I would like to take most of that 
question down to the closed hearing, if we could.
    I will say that in stocks in the theater of critical 
munition supplies is a challenge and an ongoing challenge and 
one of my consistent requests of the Department as they pursue 
their budgets. As well as the ability to resupply out there, 
that remains a need as well.
    And I am happy to get into more details later on.
    Mr. Lamborn. Okay. Thank you. I appreciate the answer, and 
I look forward to that as well.
    And, General Abrams, back to you. We have heard concerning 
rumors about the level of investment the South Koreans have 
made in their own provision of armaments, calling into question 
the viability of our operational plans because they don't have 
enough precision-guided munitions [PGMs].
    Where do they stand with PGMs and small-arms acquisitions 
to support our joint requirements?
    General Abrams. Congressman, I would prefer to talk about 
that in a classified session. Those numbers are classified.
    Mr. Lamborn. Okay. Excellent. I will look forward to that 
one as well.
    Okay, I will try another one that maybe we can address here 
openly. And this is a more broad question, and I am sure we can 
take it here in public.
    It is a sensitive topic, but trilateral cooperation between 
the South Koreans and Japan is essential to our common 
security. So what is your assessment of the level of trilateral 
cooperation, especially between these two very important 
security partners?
    Admiral Davidson. Well, sir, I think, you know, the most 
key evidence right now is, at the Enforcement Coordination Cell 
that the U.S. sponsors in Yokosuka, Japan, we have both 
Japanese and Korean partners sitting side by side helping to 
enforce the U.N. sanctions regime against North Korea in the 
illicit transfer of oil and ship-to-ship transfers there in the 
East China Sea and Korea Bay.
    I think that is an important bellwether to keep in mind, 
that we are working in a very collaborative, cooperative, and 
totally transparent manner at sea, in the air, and in the 
coordination of those forces in a single headquarters.
    Mr. Lamborn. Thank you. I am very encouraged by that. I 
appreciate your answers.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Secretary Schriver, thanks. Good to see you again.
    I have a followup on Mr. Cisneros' questions with regard to 
training on the peninsula. And I was wondering, do we have any 
demonstrable or tangible action from the DPRK in response to 
cessation of readiness exercises on the peninsula?
    Secretary Schriver. On our core area of interest and 
concern, the issue of denuclearization, we have not seen any 
progress to speak of.
    Mr. Larsen. So would it be fair for me to conclude that we 
gave up something for nothing as a result? If that was my 
thought, would you say that would be a reasonable conclusion?
    Secretary Schriver. I certainly understand the concern. I 
think what we have tried to do is create an environment for a 
diplomatic process to unfold. In Hanoi, we were disappointed 
that the North Koreans weren't prepared to talk about how to 
fulfill Chairman Kim's pledge. Our door is still open for 
diplomacy, but to date we have not seen movement on 
denuclearization.
    Mr. Larsen. Yeah. So the next question is, what should we 
expect from this diplomacy?
    Secretary Schriver. We expect them to fulfill Chairman 
Kim's pledge made at Singapore, which is to pursue complete 
denuclearization. And we would like them to start by 
identifying a common, shared definition of what 
denuclearization means, and then we can build a roadmap 
alongside them on how to achieve that.
    But, ultimately, it is the full, final, verifiable 
denuclearization that includes all categories of weapons of 
mass destruction and missiles and other delivery systems.
    Mr. Larsen. Do we have a timeline under consideration when 
we will restart full readiness exercises? When will we stop 
waiting for North Korea?
    Secretary Schriver. Congressman, we are looking to the 
President and the Secretary of State and their judgment on how 
the diplomacy will go, and they will give us the signal of how 
to make adjustments in the future if they so determine.
    Mr. Larsen. Is that--thanks for that. Is that the 
Pentagon's role in this, is to wait for a signal? Are you, in 
fact, just waiting for--as opposed to injecting any information 
into this discussion in the administration?
    Secretary Schriver. Well, I think as General Abrams 
indicated, the objective is to do both, give our diplomats 
space and maintain readiness through the adjustments that have 
been made.
    If there are risks associated with a prolonged posture like 
this, we would certainly make those known. And we have made 
known our interest in all the things we think we need to do to 
maintain readiness. And I think General Abrams is doing a 
tremendous job in that regard.
    Mr. Larsen. Okay. Thanks.
    I want to follow on--not follow up. I have another set of 
questions for you on the actual budget. We talked about this a 
couple weeks ago, the Strategic Support Forces [SSF] that China 
has created in their reorganization of the PLA [People's 
Liberation Army].
    And I am wondering how the budget proposed to Congress 
reflects perhaps a response or an attempt to get ahead to the 
reorganization of the PLA, specific to the SSF development?
    Secretary Schriver. I think I would primarily point to 
increased investments in cyber in that regard, both in terms of 
the resiliency and protection of our own infrastructure as well 
as expanding the competitive space. We can talk about that more 
in the closed session.
    But given the mission of the Special Security Force, I 
think that is the area I would point to.
    Mr. Larsen. Yeah. So I think from my first set of 
questions, you probably understand--and you understand, 
General, as well. I wanted to ask the policy guy, because it is 
really more of a policy set of questions--about my concern that 
we seem to be giving up something big for not anything, for 
nothing from DPRK as part of these negotiations. And it is 
something I think is worth exploring for this committee as 
well, continue to press on this question, and expect that to 
happen.
    So thank you very much. And I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our witnesses for joining us.
    Admiral Davidson, I am going to begin with you. Earlier 
this month, General Scaparrotti spoke about the challenges he 
faces in the European Command, saying he was really two 
destroyers short, needed a better presence, both a carrier 
strike group and amphibious ready group, there to counter 
Russian aggression in the area.
    And I wanted to ask you three yes-or-no questions, and then 
I want to get you to elaborate.
    Would you say that there is a sufficient attack submarine 
presence in the Indo-Pacific?
    Admiral Davidson. They are not meeting my requirement, no.
    Mr. Wittman. Would you say you have a sufficient carrier 
strike group presence in the Indo-Pacific?
    Admiral Davidson. That is also below what I have requested.
    Mr. Wittman. Would you say you have a sufficient amphibious 
ready group presence in the Indo-Pacific?
    Admiral Davidson. That is slightly below what I have 
requested.
    Mr. Wittman. Okay. The map you gave us I think is very 
telling. There is lots of blue on here. Your AOR [area of 
responsibility] has a significant amount of area that requires 
a naval presence. I know that the Navy is going through a force 
structure assessment, looking at what the future Navy should 
be, the types of ships.
    Have they consulted with you to look at your needs, to 
assess the risks that are going to be there in the future? And 
have they talked to you in the respect of being able to help 
you reduce your risk to an acceptable level as you manage this 
AOR in the Indo-Pacific?
    Admiral Davidson. Yes, sir. No, the Navy staff is 
completely aware of existing contingency planning and where we 
are going in the new global campaign plan construct. And it is 
informing this force structure assessment that they have 
ongoing right now.
    Mr. Wittman. Very good. Thank you.
    Assistant Secretary Schriver, yesterday, Secretary Shanahan 
spoke before this committee, and he was discussing the 
administration's budgeting. We were talking about those things 
that were in it but also those things that were not in it. One 
of the things that is concerning is the reduction overall of 
the number of aircraft carriers out to 2027, with taking CVN 75 
out of the inventory, which actually takes us down to nine 
aircraft carriers.
    And I am curious if you would discuss with us and give us 
the thought behind the analysis, with the shipbuilding 
projection, that going down to nine carriers between now and 
2027, which is what retiring CVN 75 early would bring--do you 
think that that, in relation to what Admiral Davidson has just 
told us, do you think that that puts us at an acceptable level 
of risk with Navy presence around the world?
    Secretary Schriver. Well, those decisions, those tradeoffs 
go beyond my purview. I do share the----
    Mr. Wittman. Acceptable or nonacceptable risk?
    Secretary Schriver. Yeah, I think I have to defer to the 
leadership that has to make the global considerations on 
tradeoff. I am concerned about any shortcomings identified by 
the warfighters such as Admiral Davidson.
    Mr. Wittman. Okay. Very good.
    Admiral Davidson, in your best professional military 
judgment, would you say that reducing the number of carriers 
with taking out CVN 75 in the inventory, do you think that that 
leaves you and your availability, with having carrier 2.0 
presence, do you think that leaves you with an acceptable level 
of risk?
    Admiral Davidson. Sir, as I think about the future and the 
capability of the aircraft carrier, I don't see--as I 
constantly revisit our campaign planning and our presence 
needs, I really don't see the requirement going down.
    Mr. Wittman. Okay. Very good.
    Do you see, too, in the region, as you work with your 
allies there--we had talked earlier about making sure that we 
are coalescing resources, jointly operating, doing joint 
operations. Do you believe that with potentially having fewer 
carriers available, do you believe that that sends a signal to 
them as to our commitment in the Indo-Pacific region as far as 
our naval presence?
    Admiral Davidson. Sir, I would say our allies and partners 
across the region watch everything we do across all of the 
joint force, the level of participation we provide in 
exercises, what our current operations are doing, and they take 
signals from that, absolutely.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. With that, I yield back.
    The Chairman. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    And thank you to all the witnesses for being here.
    Admiral Davidson, economic, military, and diplomatic 
efforts should all be coordinated in order to implement an 
effective and coherent strategy. When one of these elements of 
power goes rogue, it impacts our overall strategy. What value 
do economic sanctions provide to our military strategy on the 
Korean Peninsula?
    And, two, can you speak to North Korea's illicit sources of 
funding and what efforts INDOPACOM is taking to reduce those 
sources?
    Admiral Davidson. Yes, sir. I mean, most importantly, we 
are supporting the State Department's pressure campaign. The 
regime's ability to sustain its funding or gain funding from 
outside really undermines our diplomatic effort, because it 
fails to bring them to the table.
    We work with our law enforcement partners as well as posts 
across the region on everything that North Korea might be doing 
across the economic and diplomatic spaces, as you indicate.
    We should note that what they are doing comes in the form 
of outright counterfeiting, comes in the form of cyber theft 
really across the globe and not in just the region. And we are 
certainly in coordination with law enforcement and the rest of 
the government on those issues, but they are actually in the 
lead there.
    Mr. Carbajal. How effective are our sanctions right now?
    Admiral Davidson. Well, speaking really just to the illicit 
transfer of oil, their imports of refined oil at sea are about 
a third less than before the sanctions regime began.
    It is very difficult to figure out what impact that 
sanctions enforcement regime is having, because it is so opaque 
inside North Korea as to how they actually--what do they keep 
in strategic reserve, how they distribute it around the 
peninsula, and how it affects KJU's [Kim Jong-un's] decision 
making overall.
    Mr. Carbajal. An area we do not focus enough on are the 
threats associated with weapons proliferation, specifically in 
regards to North Korea. Reports show that North Korea has 
exported conventional arms and ballistic missiles for decades 
and has proliferated these arms to countries like Syria which 
pose a serious threat to our international security.
    Admiral Davidson, as best as you can in this unclassified 
setting, can you provide us with better situational awareness 
on this issue? Two, are there concerns that North Korea is 
proliferating nuclear materials? And, three, how can we do 
better to address this concern?
    Admiral Davidson. It is well known, I think, across the 
United States and our allies that North Korea has long been a 
proliferator of nuclear and ballistic missile capabilities 
around the globe. That is, I think, part and parcel and, in 
fact, you know, I should really say, the basis of why we are 
going after denuclearizing the peninsula: Because they are not 
a reliable country on the globe, and it causes instability in 
areas where we don't want to see.
    I think to get to more details on this, sir, I would like 
to rather take that into a classified setting, if I could.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back my time.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you very much, Mr. Chairman. Thank 
you, gentlemen.
    I wanted to follow up on the line of questioning we have 
had a lot of discussion about, our relationship with the allies 
and our importance of that in the Indo-Pacific region.
    And, specifically, Admiral Davidson, you talked about how 
in the fall of last year we really started focusing on that, 
stepped it up, and I applaud that. I think that is great.
    I wanted to just mention that, on March 13, the B-52 
bombers, our B-52s, conducted routine training in the South 
China Sea for the second time this month. And I think that is 
very, very important for the freedom-of-navigation operations 
that we have in the region. But it appears that many of our 
allies in the Pacific are reluctant to conduct the same type of 
freedom of navigation activities.
    So I was wondering your thoughts on that, and can we expect 
to see our allies and partners support this effort in the 
future?
    Admiral Davidson. If I could, ma'am, the bomber patrols 
that we use really around the whole of the region and not just 
in the South China Sea are to maintain our readiness and to 
understand how others respond in the region. We don't actually 
use them for freedom of navigation operations.
    Mrs. Hartzler. Okay.
    Admiral Davidson. Those are training missions in how they 
are employed.
    To the point about maritime forces doing freedom of 
navigation operations, though, we have encouraged all nations, 
really, to step up their operations in the South China Sea. And 
if they are not capable of taking a policy decision to actually 
do the very assertive freedom of navigation operations we do--
we do them more assertively across the globe and always have in 
the United States to enforce these international rights.
    And if other countries aren't willing to do that, we are 
perfectly happy to see them operate in the international sea 
space that is the South China Sea. It demonstrates that it is 
an international concern to maintain that open, free, and--
excuse me--open sea and airspace. And we welcome people to do 
it unilaterally as well as with us and in other multilateral 
forums.
    Randy, got anything you want to add?
    Secretary Schriver. I would agree with all that. And I 
would just add, given the expansive nature of China's claim, 
everything inside the Nine-Dash Line, presence operations are 
valuable in and of themselves, even if it is not a direct 12-
nautical-mile challenge of a feature claimed by China or any 
other party.
    So presence, as Admiral Davidson said, is extraordinarily 
important given the expansive nature of their claim.
    Mrs. Hartzler. Okay. Great.
    As far as the partnerships go, we have several compacts set 
to expire in the coming years, like the Compact of Free 
Association States, which impacts our relationship with them, 
you know, economically, diplomatically, and militarily.
    So can you expand on the importance of these agreements and 
whether we should continue to fund them or should we let them 
expire?
    Secretary Schriver. We look forward to working with 
Congress in the hopes of continuing to fund them based on the 
needs. Over time, it is our hope that the requirements will be 
less, given the state of their economic development. But for 
the foreseeable future, we think there will be need.
    And the compact relationship is mutually beneficial. We do 
make certain pledges with respect to their defense, but we also 
gain access, we gain support at international fora, that we 
have a special relationship with these compact states that we 
want to extend.
    Mrs. Hartzler. Admiral.
    Admiral Davidson. If I could just add, madam, those three 
compact states are the connective tissue between the United 
States and the Western Pacific. We fought and bled in those 
lands during World War II. And the relationship that we have 
sustained in this compact, I think it is important to maintain 
that going well into the future.
    Mrs. Hartzler. I want to just mention Japan just a little 
bit--I had an opportunity to travel there last year--as well as 
South Korea. And, you know, there has been a period of a 
heightened tension between South Korea and Japan. I know it 
goes back a long ways.
    So I was just wondering, can you kind of give an update on 
that relationship and the efforts that the Department is doing 
to undertake to try to bridge this divide?
    Admiral Davidson. I commented a little bit earlier, 
Congresswoman, about the Enforcement Coordination Cell in 
Yokosuka, which we are using to enforce U.N. sanctions against 
North Korea. And Japanese and Korean officers are sitting side 
by side right in that headquarters with United States officers 
and, in fact, other officers and enlisted from allies and 
partners from across the region and, indeed, across the globe. 
And I think that is a very positive sign, because it is 
providing the transparency and the collaboration and 
cooperation of what the sea and air forces are doing in that 
sanctions regime to each party.
    I can tell you, I have talked extensively with both the 
Chief of Defense from Korea and the Chief of Defense in Japan 
about at least the military incidents that had occurred earlier 
this year, and things seem to be calmer right now.
    Mrs. Hartzler. Very good. Thank you.
    The Chairman. Thank you very much.
    Mr. Garamendi.
    Mr. Garamendi. Mr. Chairman, I like the way you enforce the 
rules. Thank you very much for the courtesy of calling on me 
and my colleagues. My apologies----
    The Chairman. It gives me purpose here, so I appreciate 
that. Thank you.
    Mr. Garamendi. My apologies to my colleagues for jumping in 
front of them.
    Mr. Schriver, we have had a discussion about the influence 
of China throughout the Pacific, particularly the Pacific 
Islands. What is the best way for the United States to be 
present to expand or at least maintain our position?
    I noted Admiral Davidson just talked about the history back 
in World War II and beyond. So if you could elaborate on that, 
not just with the Pacific Islands but beyond in the entire 
region. Let's leave India aside for just a moment, but the 
others.
    Thank you.
    Secretary Schriver. Well, I think our engagement is very 
important. With respect to the Pacific Islands, both Admiral 
Davidson and I have led interagency delegations there within 
the last 6 months.
    But it is really providing an alternative that is whole of 
government. As was mentioned earlier, some of these countries 
don't have militaries; they have law enforcement entities. So 
we bring our Coast Guard in, we bring other agencies in to 
really create approaches that meet their needs, which are very 
significant: illegal fishing, criminal activity, et cetera. So 
we have to fashion approaches that meet their needs and provide 
an alternative to what China or any other country might 
provide.
    And I would also add that we have like-minded partners that 
are looking at Oceania. Australia has its step-up program; New 
Zealand has its reset. We are all looking to do better.
    And with respect to broader approaches in the region, I 
think it is the same. There is blowback from how China is 
approaching some of these relationships and the debt trap 
diplomacy, predatory economics, but we have to be there, as 
well, with alternatives. And I think a demand signal is there, 
and we are doing our best to meet that demand signal with 
quality engagement and meaningful engagement that meets their 
interests and needs.
    Mr. Garamendi. Admiral Davidson, would you like to add 
anything to that?
    Admiral Davidson. Just one more specific thing. We have 
undertaken an initiative to look at our defense attaches and 
where they are positioned, particularly across the Pacific 
Island chain, and we have actually taken some near-term action 
to expand that network immediately.
    But I completely agree with all of Mr. Schriver's comments.
    Mr. Garamendi. I would like to drill down, but not in the 
next 2 minutes, on what specific things we should be doing. And 
why don't we take another minute or so, and then maybe I have a 
followup question, but let's get down to specifics. What is it? 
It is military attaches? Fine. What about the rest of the 
government, the whole of government?
    Mr. Schriver, if you would like to do it.
    Or, Admiral, jump in.
    Secretary Schriver. Well, as I mentioned, whole of 
government, bringing in our Coast Guard where there aren't 
military.
    So they have, for example, Shiprider Program agreements 
with some of the countries that assist them in monitoring their 
sovereign territorial waters for the purposes of preventing 
illegal fishing, other criminal activity.
    We have National Guard State Partnership Programs in place 
where there are Pacific Island countries that have militaries. 
We just expanded that to include Fiji through the State of 
Nevada.
    So there are a number of tools that go beyond just the 
engagement, the presence of attaches, and we are working to 
build those out. Our foreign military financing with State 
Department has been stepped up in the region. Fiji would be an 
example of that as well, where we are helping with their 
peacekeeping forces.
    Mr. Garamendi. Well, I was kind of chumming for you to 
mention the Peace Corps and the return of the Peace Corps to 
the Micronesia area, so I will mention it myself. There is a 
whole host of things.
    I just draw my colleagues' attention to the whole of 
government and the fact that in the President's budget most of 
the whole of government, with the exception of the military, is 
significantly reduced. And, therefore, our presence beyond the 
military is lacking.
    I will let it go at that. Thank you very much, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Admiral, I want to thank you for mentioning 
Communist China and their use of One Belt One Road in Latin 
America, in the Western Hemisphere, in our backyard.
    And I think it is interesting that Vietnam asked or allowed 
us, asked or allowed, whichever way we want to put it, us to 
park the Carl Vinson right there. And I think if you wanted 
proof that you can't trust Communist China, even their 
neighbors don't trust Communist China.
    And their movement into the Western Hemisphere concerns me. 
We are not here to talk about that today. But I don't think we, 
as the United States, have paid enough attention to our 
backyard and the Western Hemisphere. And I am afraid we are 
going to wake up one day and have a Chinese base in that 
Western Hemisphere, and that is something that I don't think we 
can afford to allow.
    So, with that said, Assistant Secretary Schriver, as 
Communist China continues to grow both physically and virtually 
around the world, what impacts is this having on the United 
States ability to strengthen our partnerships in the Indo-
Pacific regions? Are we at risk of losing our partnerships 
because of Communist China and their use of One Belt One Road 
to buy their way into favor?
    Secretary Schriver. Quite frankly, I think we are more 
often than not the preferred partner.
    I think a lot of Chinese engagement has resulted in a 
backlash, because their intent is not benign. They come in with 
the goal of entrapping countries, in many instances. When we go 
in, we want genuine partnership, we want to help countries 
address their needs. All we really want is countries to be 
sovereign and have the ability to protect that sovereignty and 
their independence and freedom for maneuver.
    So I think we are the preferred partner, but we have to 
show up, and we have to be a good, reliable partner to them.
    Mr. Scott. I agree with you. And the things like trade 
relations, quite honestly, in many cases, have as much, if not 
more, to do with peace than the military strength. And I think 
it is unfortunate that when the TPP [Trans-Pacific Partnership] 
was being discussed, it became a political football that got 
kicked around by both sides, quite honestly. And we need to 
have the trade relationships in Asia, and we need trade 
relationships with countries other than China in Asia.
    General Abrams, you have stated that you have a persistent 
need for ISR. I know of no commander who thinks that they have 
enough ISR. The geographic challenges of the Korean Peninsula, 
the size of it.
    And so, in your first 120 days as commander, your support 
with ISR to detect attack as early as possible, are you 
receiving enough support there? And if not, what do you need 
from Congress as we push forward with the National Defense 
Authorization Act to do that?
    General Abrams. Congressman, we are adequately resourced 
with ISR during armistice conditions as it relates to the 
current reduction intentions on the peninsula. So I want to be 
clear, I am not ringing the five-alarm fire bell right now on 
ISR.
    But as we look to the future, as conditions might change, 
if they change negatively, then our stance and our posture is 
not adequate to provide us an unblinking eye to give us early 
warning and indicators.
    And I can give you a couple of examples during the closed 
session of exact capability that we would need, but suffice it 
to say we are short to be able to do that if things start to 
turn bad.
    Mr. Scott. Well, I will tell you, the JSTARS [Joint 
Surveillance Target Attack Radar System] fly out of Robins Air 
Force Base. I am glad that we are starting to do the depot 
maintenance work at Robins Air Force Base. Hopefully, we can 
get that turnaround time shortened and get more of those planes 
in the air.
    I want to just leave you with a couple things. I mentioned 
this to the Secretary of the Air Force this morning. Hurricane 
Michael hit the southeastern United States just under 6 months 
ago. We have approximately three legislative days left that are 
not fly-in/fly-out days before we leave for the Easter break, 
and we are yet to have a disaster bill passed. If that is not 
passed before we leave for Easter, then it will delay things 
for weeks, potentially even another month.
    I hope that the people at the DOD will help hold our feet 
to the fire to get that done prior to leaving. And I would 
mention to you that you are about 6 months from sequester----
    The Chairman. The gentleman's time has expired. If he wants 
to wrap up that thought, he is more than welcome to.
    Mr. Scott. I would just caution you that the calendar is 
ticking, and we need some type of agreement on a caps deal--Mr. 
Chairman, I think you would agree with me on that----
    The Chairman. Yes.
    Mr. Scott [continuing]. Sooner rather than later so that we 
can adopt our National Defense Authorization Act.
    The Chairman. And I would echo that thought. I mean, as you 
mentioned in the outset, having fiscal year 2019--October 1, 
you knew how much money you were going to have, you were good 
to go, and that was the first time in I don't know how long. 
You know, to get that again for fiscal year 2020 would be 
enormously important.
    And I think it is the greatest burden in Congress and the 
White House. We need to find a way to work together and get 
that deal. I think it is there to be made. Obsessing over the 
budget caps that were set back in 2011 in a situation where--I 
mean, Mr. Turner and I had a robust disagreement, exactly what 
that situation was. But we did agree today that it was all part 
of the controversy of trying to figure out what to do about the 
budget, the debt ceiling, and how do we get the deficit and the 
debt under control.
    But to jeopardize the entire discretionary budget over an 
amount of money that isn't going to have any impact on our 
long-term debt and deficit is the height of irresponsibility, 
to my mind. We need to work together and get certainly for DOD 
but for the entire discretionary budget.
    So I appreciate the gentleman making that point. Thank you.
    Ms. Houlahan.
    Ms. Houlahan. Thank you.
    And thank you, gentlemen, for coming today and for 
testifying. I am going to continue asking the question that 
Representative Larsen and Representative Cisneros were talking 
about.
    I also serve on the Foreign Affairs Committee and the Asia 
Subcommittee, and I had the opportunity to ask the same kinds 
of questions of Mr. Victor Cha recently that had to do with the 
exercises that are conducted overseas that have been suspended 
in some cases, and I am just trying to triangulate the answer.
    You mentioned that you had been asked to be creative about 
effectively redesigning, reimagining the exercises so that they 
could be effective. He mentioned that he was concerned that if 
those reimagined exercises continued in the capacity that they 
were, which was in some cases not actually in the places they 
ought to be, that by the springtime he would be anxious that we 
should be returning to actually exercising in the places that 
we planned to have those scenarios actually unfold.
    And do you have that same kind of concern, where if we 
continue to sort of exercise off-site, for lack of a better 
descriptor, which is how he was alluding to it, that we are in 
some ways less ready than we would have been otherwise?
    General Abrams. Congresswoman, I did read those comments. 
And I have the utmost respect for Mr. Cha, but he is not fully 
read in on how we conducted these exercises.
    I would prefer to--I am happy to give the members all the 
details you want on things that we have done with the exercise 
designed. But I want to assure you and all the members, this 
exercise was probably more rigorous, more challenging, and 
stressed our systems more appropriately than we have in many 
years past. I would prefer to go into how we were able to do 
that in a closed session.
    But the Department is committed, I know the Secretary of 
Defense is committed, to us being able to sustain that 
readiness and continue to train and exercise as we need to to 
keep it as a ``fight tonight'' capability.
    Ms. Houlahan. Thank you. And I will look forward to having 
that conversation in the next session.
    My next question is for Mr. Schriver and Admiral. It has to 
do a little bit with the bases that are currently in Djibouti. 
And if you could look kind of at the map of the area that we 
are talking about today and think about if there are any 
vulnerable countries that you can think of that will maybe 
succumb to the lure of China and their money and their 
resources. Could you identify what countries those are that you 
would be maybe worried could be coopted into being a Djibouti-
type situation?
    Secretary Schriver. Before naming specific countries, I 
think it is important to note that China is opportunistic. 
Wherever they see the conditions--and, generally, they are 
weaker, in some cases authoritarian states, vulnerable 
economies, et cetera, where their predatory economics have 
attraction.
    I think what we have seen is attempts in places like Sri 
Lanka and the Maldives and Malaysia that were quite robust and 
ultimately somewhat thwarted by the elections in Maldives. Mr. 
Yameen lost reelection in Sri Lanka. The Rajapaksas were 
replaced, at least temporarily. And in Malaysia, we now have 
Mr. Mahathir in his second turn as leader. And much of that as 
a result of China's overplaying their hands.
    Certainly in the Pacific Islands, we see some vulnerable 
states that China is approaching. And there has been some press 
coverage on some of those--for example, Vanuatu, which I have 
visited, others in the administration have visited to assure 
them that there are alternatives and shine a light on what 
happened in some of these other countries so that they don't 
fall prey to it.
    Ms. Houlahan. Thank you.
    And I have one last question with my one last minute which 
has to do with that. And I think that people do say that China 
is more successful in developing economic security and security 
relationships with countries because it doesn't have the same 
kind of regulatory requirements and restrictions as we do in 
terms of human rights and vetting and anticorruption 
requirements and those sorts of things. And you have mentioned 
that our values compete well in this area.
    And so I wanted to ask you, do you believe that countries 
choose China over us because of these requirements that we 
have? Or do you think that we are able to continue to have our 
values and also be competitive in the environment that we are 
in right now?
    Secretary Schriver. I think, as Admiral Davidson, I think, 
alluded to earlier, our values are key to our ability to 
compete, and there is an attraction to it.
    I think the countries that are most susceptible oftentimes 
have weak, authoritarian governments that are willing to engage 
in activities that are, quite frankly, corrupt. But what we 
offer, even if it is not in the vast sums that China can come 
to the table with, is clean, transparent, open approaches that 
have long-term benefit to the people, not just the leadership.
    Ms. Houlahan. I appreciate that, and I agree with that. 
Thanks so much for your time.
    I yield back.
    The Chairman. Thank you.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Admiral Davidson, intelligence suggests China has made 
strong progress in the development of hypersonic weapons that 
pose unique challenges to America's current missile defense 
systems.
    First question: Do you have a judgment about whether China 
is apt to use hypersonic weapons in a regional or strategic 
scenario?
    Admiral Davidson. Sir, they don't have capability that they 
would use, I think, in combat immediately, but their initial 
capability, I think, is in the horizon of just the next few 
years, yes.
    Mr. Brooks. With respect, then, to China's expected 
capabilities, are you planning for them to have conventional-
tipped warheads, nuclear-tipped warheads, or both?
    Admiral Davidson. I think the Nation needs to be prepared 
for any outcome there. Both.
    Mr. Brooks. And what are our current hypersonic defense 
capabilities?
    Admiral Davidson. Well, as you indicated in the preface to 
your question, sir, our ability of our integrated air and 
missile defense systems to handle hypersonics is short of their 
capability. They have a different, you know, flight profile 
trajectory that makes it hard for current sensing systems to 
maintain track on those things, and it makes it hard for our 
current interception systems to actually make the turn and do 
the intercepts.
    So continued advancement here by the Department--and I 
think you are going to be pleased with the downpayment in the 
fiscal year 2020 budget. Continued advancement here in both 
sensing, which is going to require an airborne or space layer, 
as well as continued advancement in our ability to intercept 
these weapons, defeat them, I think you are going to see the 
beginnings of that in the 2020 budget.
    Mr. Brooks. How long do you anticipate it will be before 
our defense capabilities are such that we can rely on them?
    Admiral Davidson. Sir, I will have to take that for the 
record. You know, money is a resource here. That is a factor. 
But so is time. And I think Dr. Griffin and as the services 
pursue this capability, I think they could give you a more 
refined answer than I could. But I need to do some coordination 
with them to get back to you.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Brooks. Well, that flows into my next question. How 
much more money do you believe we need in the next fiscal year 
defense budget in order to adequately accelerate defense 
capabilities to hypersonic weapons?
    Admiral Davidson. Sir, if I could take that question down 
below. You know, I can begin to address that, but I am going to 
have to take that for the record as well.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Brooks. All right. Thank you.
    We have moved from defense now to offense.
    Assistant Secretary Schriver, the Missile Defense Review 
opens the aperture for hypersonic glide defense. What 
investments are necessary to get the Department of Defense 
developing such a capability for the INDOPACOM area of 
responsibility?
    And then follow up on that with, in your judgment, how long 
will it be before America has an effective offensive hypersonic 
capability?
    Secretary Schriver. I can only answer at the very general 
level because----
    Mr. Brooks. I understand.
    Secretary Schriver [continuing]. There are parts of the 
Department that deal with both the offense and the defense 
equation. But I do think you will see this reflected in the 
2020 budget, an increase in resources both on the defense and 
offense side. I do think time is of the essence, given where 
China and competitors may be on this.
    And, of course, it is not limited to hypersonics but, as 
was pointed out, all the enabling sensors and other 
capabilities that China is pursuing as well. Because there are 
a variety of ways to deal with this capability, and it may not 
only be shooting down a missile; it may be disabling other 
aspects of their infrastructure.
    But to get into more detail, we would probably need to be 
another setting, and I would probably have to have the support 
of colleagues who have more of the technical background.
    Mr. Brooks. Well, to use a football analogy, sometimes the 
best defense is a good offense. Do you have anything that you 
wish to add about our development of offensive capabilities, 
offensive hypersonic capabilities?
    Secretary Schriver. Only that I know that it has been 
identified as a priority and it is being resourced at greater 
levels in our budget.
    Mr. Brooks. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman.
    And thank you all for being here and for your service.
    Admiral Davidson, North Korea has a variety of sources of 
illicit funding, and U.S. Indo-Pacific Command supports the 
enforcement of U.N. Security Resolution sanctions.
    I know you spoke to Mr. Carbajal a few minutes ago about 
sanctions enforcement, but can you speak to how Russia and 
China are living up to their responsibilities to do the same?
    Admiral Davidson. Well, I think in the diplomatic space, 
both Russia and China continue to try to undermine the 
sanctions effort by proposing relief to sanctions at the U.N. 
That is certainly not helpful in what I think should be the 
world's objective, to get to a denuclearized North Korea.
    I also believe that Russia kind of confounds our 
initiatives across the region by direct diplomatic engagements 
with other countries to garner the votes that they need to 
prevent these sanctions.
    I can tell you that China, in the maritime space, using 
terrestrial sensors, using airborne sensors, they are watching 
how we do the sanctions enforcement regime. They are offering 
zero assistance. I can't say that they are preventing our ships 
and aircraft from doing their mission, but they are certainly 
not monitoring their own territorial seas very well, and they 
are not adding to the picture at all. And they continue to 
undermine the effort at the U.N. as well.
    Ms. Hill. Thank you.
    So I guess along those same lines, you spoke earlier about 
how Russia plays a spoiler role in the region. Can you talk a 
little bit more about the specifics around that and what that 
entails?
    Admiral Davidson. One of the things that they tell other 
nations in the region is that our sea and our desire to 
maintain an open sea and airspace in the South China Sea, for 
example, should not be our objective. Yet they use that same 
sea and airspace themselves and actually use the open seas and 
airways to, you know, fly threatening bomber profiles to our 
allies and, in fact, on the United States as well. You know, I 
think that is a high form of hypocrisy.
    They are doing some engagements in the region where they 
are seeking to either gain access in a commercial fashion or in 
a science fashion that could lend itself to military 
capabilities. That has been upsetting. The good news there is 
that some of these other countries have at least called us and 
notified us of that.
    And they have made it--they have partnered with China in a 
large exercise last fall that was in Russia.
    They just are unhelpful in the whole of the diplomatic 
informational, military, and economic space.
    Ms. Hill. General Abrams or Mr. Schriver, do you have 
anything to add on that front?
    General Abrams. Congresswoman, I will tell you that we 
continue to see positive effects on the sanctions; Admiral 
Davidson briefed it earlier. But to reiterate what the admiral 
said, the Chinese can and should do much, much more to meet 
their obligations in accordance with the U.N. Security Council 
resolutions.
    Ms. Hill. So what do you think this all kind of boils down 
to? What do you think the general effect is having, and what do 
we need to do about it, from your end?
    Admiral Davidson. Well, China is attempting to undermine 
the rules-based international order to their own benefit or to 
the benefit of people or entities or regimes, frankly, that 
they seek to partner with. It is not helpful.
    Ms. Hill. And the same for Russia?
    Admiral Davidson. Yes, ma'am.
    Ms. Hill. So along those lines, then, the President has 
made the decision to cancel U.S. participation in Key Resolve 
and Foal Eagle. What message do you think ending those 
operational norms with the ROK, while the White House is saying 
we won't impose further sanctions on North Korea because of his 
relationship with Kim Jong-un, what do you think that message 
sends to--what message do you think that sends to our allies 
and partners in Asia and to Russia and China themselves?
    General Abrams. Congresswoman, if I could, just to be 
precise--and this is not semantics--Key Resolve and Foal Eagle 
were not canceled. We have concluded that exercise regime that 
was in effect for about 35 years that was probably necessary, 
designed, optimized based on the situation on the peninsula 
vis-a-vis bellicose and aggressive and provocative behavior 
from the DPRK.
    We have since transitioned now, in accordance with guidance 
from Secretary Shanahan and Minister of Defense Jeong from the 
Republic of Korea and their statement. So we have concluded 
that previous exercise regime, and they have given us the green 
light to develop a new set of exercise regimes so that we can 
continue to meet and maintain our readiness requirements.
    Ms. Hill. Thank you.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    And I believe it was Chairman Smith who said during his 
opening statement that on the Korean Peninsula, we are at a 
high-water mark since the cessation of conflict during the 
Korean war.
    I wanted to give General Abrams and Admiral Davidson an 
opportunity to reflect on how those improving conditions have 
manifested. What is the evidence that we see, and what do we 
expect from the trend lines as it relates to the overall status 
of conflict on the Korean Peninsula?
    General Abrams. Congressman, if you go back just 2 years to 
2017, during the height of missile tests, nuclear weapons tests 
by the DPRK, I would describe--and I was not the commander 
then, but I was certainly watching very closely as the U.S. 
Army's force provider to have forces ready should crisis be 
required.
    I would characterize our posture and our stance as we were 
in a low crouch. We were increasing our stockages, increasing 
our force posture. We made the decision to deploy an additional 
very capable integrated air and missile defense system called 
THAAD [Terminal High Altitude Area Defense]. And, you know, 
things were very tense on the peninsula. People were at the 
low-ready.
    Now, compare and contrast that, juxtapose that on a 2019, 
and there is a palpable air of calm on the peninsula. We are 
able to sustain and we continue to train and maintain our 
readiness. But simultaneously, along the Demilitarized Zone, on 
the West Sea, the East Sea, along the Northern Limit Line, 
inside the Joint Security Area, that for the first time since 
1976 the Joint Security Area is now 100 percent demilitarized. 
All of that are evidence, I would say, of how I can say 
confidently that the tension has reduced significantly.
    Mr. Gaetz. Admiral Davidson, do you have anything to add to 
that?
    Admiral Davidson. No, sir. But I will add that the 
readiness of our forces are key in our mind, and we want to 
make sure that both the tactical forces and the operational-
level forces, you know, the headquarters that coordinate 
between the United States and the Republic of Korea, all that 
training and readiness is sound.
    As General Abrams indicated earlier, we are keeping a close 
eye on any changes in the capability set, whether it is in 
conventional forces in North Korea, whether it is in nuclear, 
the potential for a nuclear test, and missile testing. And we 
will be ready to respond should those indicators say they are 
on a different trajectory than what General Abrams just 
described.
    Mr. Gaetz. And, Mr. Schriver, it seems to me that this new 
era of calm has been ushered in by an unprecedented level of 
engagement with the administration on the actors, the players, 
the chairman in North Korea.
    Have you drawn any conclusions about the actions that have 
been taken by the administration and the extent to which they 
have contributed to the new sense of calm that General Abrams 
articulated?
    Secretary Schriver. Well, I think the unprecedented step of 
meeting leader-to-leader has made this environment what it is. 
Ultimately, that----
    Mr. Gaetz. And what it is is safer, right?
    Secretary Schriver. Tensions are down, and I would describe 
it as safer in terms of avoidance of an immediate conflict, 
particularly one that is unintended or unwanted.
    We do need North Korea to take advantage of this 
environment and fulfill Chairman Kim's pledge to denuclearize.
    Mr. Gaetz. And shifting gears briefly to hypersonics, Mr. 
Schriver, are we ahead or behind China in hypersonics now?
    Secretary Schriver. I am not sure I am qualified to give 
you a precise answer on that, other than I am seized with a 
sense of urgency, as I believe our Department is, that we need 
to invest on both the defense and the offensive side to make 
sure that our competitive advantages are maintained.
    Mr. Gaetz. And what are the consequences if we don't? If we 
are demonstrably behind China in hypersonics going forward, how 
do you think that impacts the balance of power globally?
    Secretary Schriver. Increased risk and greater 
vulnerability for our ability to impact our security interests 
and our broad interests in the Indo-Pacific.
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    I would like to start with General Abrams.
    General Abrams, thank you very much for coming into my 
office yesterday. I appreciated the discussion.
    And I just want to start by saying that, when your 
commander, our Commander in Chief, handed you a deck that meant 
you could not continue your prime exercises in this theater, I 
learned yesterday that you innovated remarkably and have 
improved upon the existing, the old exercises to modernize 
them, to make them more full-spectrum, and to adapt to the 
current situation. And you deserve a lot of credit for that. I 
know that is not easy to do in the U.S. military, and I 
appreciate that very much.
    Admiral Davidson, you stated in your testimony that North 
Korea will remain the most immediate challenge until we achieve 
the final, fully verifiable denuclearization as committed to by 
Chairman Kim Jong-un at the summit in June of 2018.
    ASD Shriver, so we gave up the exercises. What did we gain 
from the summit?
    Secretary Schriver. I think we gained an opportunity to 
engage in a way that could be productive if North Korea is 
prepared to take the difficult steps in the direction of 
denuclearization.
    Mr. Moulton. That is an opportunity that didn't exist 
before?
    Secretary Schriver. I think leader-to-leader engagement did 
create an unprecedented opportunity. But North Korea has not 
taken the steps to fulfill Chairman Kim's pledge, and we are 
disappointed that they haven't come to the table in a serious 
manner.
    Mr. Moulton. Are you surprised?
    Secretary Schriver. Having worked on this in some form or 
another for almost 30 years, I think I have seen a lot of 
different approaches, none of which have been successful. I 
think this is the best opportunity that North Korea will ever 
have. Whether or not they make the strategic choice, that is 
difficult to say.
    Mr. Moulton. Why would they give up their nuclear weapons, 
Mr. Schriver?
    Secretary Schriver. I think there is a better path and a 
better future for the country, quite frankly. And I don't think 
their weapons are making them more secure. I think, you know, 
it was only a year and a half ago, 2 years ago that we were at 
a period of very high tensions and possible military action. I 
don't think these weapons are making them more safe and secure.
    Mr. Moulton. So you talked about this, the fact that 
tensions are down, you said. My colleague just said there is a 
new level of calm. Have tensions ever been higher than they 
were at the beginning of this administration, when North 
Korea's hot-headed leader was exchanging tweets with ours?
    Secretary Schriver. We have had periods of heightened 
tension. I think 1994, Secretary Perry used to say that is the 
closest he came to war while he was Secretary of Defense, but--
--
    Mr. Moulton. Right, while he was Secretary. But has it ever 
been as dangerous as it was a couple years ago?
    I guess my point is that it is one thing to talk about 
tensions being down, but if you are just solving your own 
problem, you know, the tensions that you created yourself--and, 
as a result, we are where we were before in terms of 
negotiations, in that North Korea hasn't given up anything. We 
now know from public intelligence reports that they are 
actually continuing their nuclear weapons development, so they 
are farther along than they were at any time. Literally, today, 
they are farther along than they have been at any time in 
American history.
    And all we gained after giving up our exercises is a, 
quote/unquote, opportunity that nobody is surprised that the 
chairman hasn't taken. Then I just--where do you think this 
goes next, and what diplomatic leverage do we have at this 
point?
    Secretary Schriver. Yeah, the choice for North Korea is 
very clear, and it is a stark one. They can continue to live in 
isolation; they can continue----
    Mr. Moulton. I understand their choice. What leverage do we 
have?
    Secretary Schriver. Well, the maintenance of sanctions, I 
think, continues to put pressure on North Korea.
    Mr. Moulton. So you think sanctions are helpful?
    Secretary Schriver. I do.
    Mr. Moulton. So, then, why did the President just cancel 
the latest sanctions?
    Secretary Schriver. As I understand it, none of the 
sanctions have been removed or changed since the tweet, as the 
White House----
    Mr. Moulton. Since the tweet. So you would disagree with 
the idea of removing sanctions; that would be unhelpful.
    Secretary Schriver. I think it is helpful to maintain 
pressure. The decisions on future sanctions are beyond my 
purview.
    Mr. Moulton. So undoing pressure by tweet would not be 
helpful.
    I want to just shift focus for a second to India. You 
previously mentioned how important our relationship is with 
India. How does India's recent purchasing of the S-400 and the 
leasing of Russian nuclear submarines impact our relationship 
going forward?
    Secretary Schriver. The decision to procure S-400s has not 
gone to contract or been completed. We are very keen to see 
them make an alternative choice. We are working with them to 
provide potential alternatives. I think it would be an 
unfortunate decision if they chose to pursue that.
    And, of course, we have the legislation hanging over all of 
that. The legislation is not designed to be an impediment in 
the growing strategic partnership we have with India. It is 
designed to impose cost on Russia and consequence for Russia. 
So, one way or another, we want to work through it, because 
India is an important emerging strategic partner for us.
    Mr. Moulton. Thank you very much.
    The Chairman. The gentleman's time has expired.
    Oh, before I call on Mr. Banks, we are going to do the 
classified hearing at 12:15. So we are going to be wrapped here 
before 12:15 no matter how many people are here, and we are 
going to go upstairs for the classified at 12:15.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Admiral Davidson, in the past, you have mentioned that 
INDOPACOM only has a quarter of the intelligence, surveillance, 
and reconnaissance capabilities required to address the range 
of threats in the AOR. For fiscal year 2019, the CNO included 
sonobuoys on the Navy's unfunded priority list [UPL]. And, 
again, in fiscal year 2020, a portion of the funding request 
again appears in the UPL.
    In looking at your command's requirements in the current 
and foreseeable security environment, would you also include 
assets like sonobuoys as a critical ISR shortfall, especially 
in light of submarine activity in your AOR?
    Admiral Davidson. Yes, sir. Given the ongoing expansion of 
Chinese submarine operations in the Pacific and the Indo-
Pacific, as well as new capability that the Russians will be 
introducing into the theater over the next couple years with 
the Severodvinsk-class cruise-missile-capable submarine, 
sensing like sonobuoys is going up in value and need.
    Mr. Banks. Thank you for that.
    Shifting gears, yesterday, we had Secretary Shanahan in the 
same seat that you are in today. I am going to ask you the same 
question that I asked the Secretary yesterday.
    Even if every Congress and President agree on the goal of a 
355-ship fleet for decades to come, we will not reach the 
desired goal for at least, I said, 40 years yesterday, without 
a firm commitment. The Secretary pushed back and said 18 years. 
I will give the Secretary 18 years on the low end, and some 
experts say 40 years on the high end.
    In light of that, what do you expect the balance of forces 
between the U.S. and China to be by the time we achieve a 355-
ship fleet? And when do you believe that it is realistic to 
achieve this goal?
    Admiral Davidson. To your first question, Congressman, I 
think we are going to lose our quantitative edge in about the 
2025 timeframe. I think that is going to be a challenge for our 
equities in the region, absolutely. I can't comment how much 
faster or slower the need--needs to happen here. There are some 
shipbuilding limits, the capacity in the United States to 
actually produce the ships. But I think the Navy's force 
structure assessment will take that fully into account as they 
come forward later in the year with it.
    Mr. Banks. Thank you for that.
    Mr. Schriver, in your testimony, you said, quote, ``There 
is an active North Korean effort to undermine sanctions and sow 
political division in their execution. North Korea has turned 
to the use of illicit ship-to-ship transfers off China's coast 
to evade caps on importing refined petroleum and the sale of 
textiles and coal. These restrictions were imposed and 
periodically strengthened as a result of North Korea's illegal 
weapons development activity dating back to March 2016,'' end 
quote.
    With that, what is the logic of the Trump administration 
considering lessening sanctions on North Korea, and rewarding 
North Korea if they won't comply with the original sanctions to 
begin with?
    Secretary Schriver. As I said, I am not aware that 
sanctions have been removed or changed. I think it is very 
important to keep pressure on--and it is, I think, a defensible 
statement we wouldn't be where we are today without the 
pressure that North Korea has felt.
    Your point about--well, quoting my statement about China, 
we will not be successful unless China does more to enforce 
sanctions themselves, including their activity in their 
territorial water, period.
    Mr. Banks. Good. On that same note, Admiral, you have 
talked in the past about naming and shaming those entities that 
abet sanctions of Asia in North Korea. Have we done that? Have 
we made any successful efforts to--at all to minimize sanctions 
evasion?
    Admiral Davidson. There have been a number of flag states 
that the United States has engaged in, as well as other 
countries to sideline vessels that have been participating in 
the illicit transfer of oil to North Korea as well as some of 
the ownership companies and shippers involved.
    And I think the key is to disrupting that providing network 
as we go forward. But there has been engagement at the 
diplomatic level, to your point, naming and shaming of these 
individuals, and we have seen robust action from other 
countries in that regard.
    Mr. Banks. So you have seen progress or we hope to see 
progress?
    Admiral Davidson. Yes, sir, we have seen progress.
    Mr. Banks. You have seen progress.
    Admiral Davidson. And it will continue.
    Mr. Banks. Thank you.
    With that, I yield back.
    The Chairman. Mr. Golden.
    Mr. Golden. Thank you, gentlemen.
    I have heard a lot of questions and a lot of the ones that 
I was going to ask, so I am going to take you in a slightly 
different direction, if you would. I think Congresswoman 
Houlahan touched upon this a little bit talking about Persian 
Gulf ports and China's, you know, presence in that part of the 
world.
    A little bit outside your AOR, but the National Security 
Strategy, National Defense Strategy does talk about reorienting 
ourselves from near-peer competition to include China. And I 
think a lot of people think of this only in military-to-
military engagement, but you often talk about the economic 
aspects of all of this.
    And, you know, I was curious, we haven't really talked 
about Afghanistan. I have been reading some reports about China 
starting to have a little bit of military-to-military 
cooperation with Afghan National Government.
    We certainly know that their relationship in Pakistan, 
think about One Belt One Road and the port that they are 
developing there, and their ability to drive into Afghanistan, 
get into Central Asia and the Gulf. You know, there is ports in 
Iran. I think the success of those ports, you know, figures 
largely in that region and security in Afghanistan.
    So it is kind of the back door to your AOR, so I just 
thought I would give you an opportunity to talk about, as the 
U.S. talks in negotiations with Taliban, talks about 
withdrawing, what kind of a footprint do you hope to see in 
Afghanistan? And what kind of a role--how important it is to 
your area of responsibility that the U.S. is present and, you 
know, has a strong relationship with the Afghan Government?
    Secretary Schriver. I think it is critical. We are in 
Afghanistan, first and foremost, to protect the United States 
and protect Americans. If Ambassador Khalilzad is successful in 
the efforts to promote reconciliation, it is expected that 
there would still be some terrorist threat that would remain, 
and I would hope that--it is our objective that through those 
negotiations, that we have the latitude to maintain a presence 
sufficient for that terrorist threat that may remain.
    In a post-reconciled environment, we would expect the 
Afghans themselves to deal with the terrorist threat. They 
certainly don't want that on their territory, at least the 
government in Kabul. So it will be conditions-based, and I 
think that is being reflected in our negotiations.
    Admiral Davidson. Sir, if I could just add quickly, I 
mentioned earlier that I think our U.S. values compete 
extraordinarily well, and they do in Afghanistan very much so. 
And when you look at China's, what can only be said, 
incarceration of more than what is estimated to be right now, I 
think, 1.5 million people in the Uyghurs in Xinjiang, you know, 
I think Afghanistan would view heavy Chinese involvement in 
their country and Chinese interests as a chilling factor.
    The Chairman. Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    And I want to--gentlemen, I want to thank you both, 
particularly your families, for--it is a team effort to serve, 
and thank you for your years of service.
    I want to talk very--go back to India for a moment. I 
agree, I think it was the ranking member who said it is a 
seminal--or perhaps the chairman--really one of the seminal 
alliances, I think, moving forward. What more can we do in our 
engagement with India, and what more should we be doing? What 
more would you like to do? And how can this body help?
    Admiral Davidson. Sir, the signing of the COMCASA 
[Communications, Compatibility and Security Agreement] and the 
two-plus-two meeting that the Secretary of Defense and 
Secretary of State had last September in India, I think is a 
breakthrough.
    Down at the operational level, we are working on an effort 
now to really operationalize the COMCASA. It is an agreement 
to--it is an IT [information technology], essentially, 
agreement in which underpinning that we can do some information 
sharing and other things.
    There is an opportunity for us to share tactical flyaway 
kits, and an operational planning system that I think will 
advance our relationship on a military-to-military level very, 
very well.
    I continue to make the point with them that our 
interoperability and compatibility going forward is--will be 
advantaged with the purchase of U.S. systems. That allows us to 
get to training, doctrine, tactical-level coordination that is 
really powerful.
    So while they very much want to protect their non-aligned 
policy, the tactical and technical capability we get out of 
like systems will really advance that relationship down in the 
military space.
    Randy?
    Mr. Waltz. Thank you.
    And just--so on top of that, switching to space, how does 
China's growing capability, anti-SAT [anti-satellite], 
dazzling, their capabilities that they are essentially putting 
all over the globe in terms of tracking through One Belt One 
Road and through their debt diplomacy, how is that affecting 
you operationally? I leave it open to anyone on the panel.
    Admiral Davidson. It is a capability development in the 
battle space that would have effect on the freedom of action of 
the entire joint force, not only in the Indo-Pacific Command, 
but really around the globe.
    Mr. Waltz. Switching to China--I mean, excuse me, switching 
to Japan, do you believe, Mr. Schriver, it is time--I 
understand this is an internal Japanese issue. It is a very 
contentious political issue in terms of article 9. We are 
taking a hard look at cost sharing, growing Chinese 
capabilities. U.S. can't do it alone.
    We are looking at losing the quantitative edge in terms of 
our fleet, as the admiral just mentioned, by 2025. Should we--
what can we do to talk to the Japanese about taking additional 
steps, taking that hard step internally and making those 
changes they need to their constitution to be a more effective 
military partner?
    Secretary Schriver. Well, you rightfully acknowledge it is 
a sovereign decision of the Government of Japan and the people 
there. I think the step to re----
    Mr. Waltz. But they have a responsibility as an ally. I 
mean, this is a 70-year, you know, construct now and the world 
has changed.
    Secretary Schriver. I think the step they took to 
reinterpret article 9 gave us greater flexibility and latitude, 
and we are taking advantage of that. Their new national defense 
program guidelines, when compared with our National Defense 
Strategy, revealed to us that there is nothing but open space 
for us to build this alliance out.
    I am not aware that the distinction between reinterpreting 
versus actually changing the Constitution is an impediment 
right now, but if it were to become one, we would certainly 
raise that with our Japanese friends.
    Mr. Waltz. Okay. Just in the time I have remaining, 
Admiral, how does the Latin American angle in terms of their--
the 17 nations that you mentioned participating, signing 
agreements, One Belt One Road, how is that affecting your force 
laydown or force posture? Is it significant? Where do we--what 
do we do going forward?
    Admiral Davidson. All those countries are actually in 
SOUTHCOM's [U.S. Southern Command's]----
    Mr. Waltz. Right.
    Admiral Davidson [continuing]. Area of responsibility. I 
actually talked to Admiral Faller just last night to make sure 
that I understood, and he wanted to understand my concerns as 
well. I think you are not seeing profound military action in 
the SOUTHCOM AOR right now. Last year China did run a hospital 
ship down there with some medical capability, but----
    Mr. Waltz. I would note, just in my time remaining, I do 
understand they put a satellite tracking system in Argentina on 
land lease, so it is a road that--it is a trend we are seeing.
    Admiral Davidson. And we have seen other, you know, 
requests across the Indo-Pacific AOR, but the net result of 
which is the potential for more bases, places for China to 
operate out of base airplanes, fix ships, that kind of thing.
    The Chairman. The gentleman's time has expired. We will 
have to continue the discussion upstairs.
    Mr. Waltz. Thank you, Mr. Chairman.
    The Chairman. Mrs. Luria, and when she is done, we are 
going to reconvene in 2212.
    Mrs. Luria. Well, thank you for being here today.
    And, Admiral Davidson, it is especially good to see you 
again.
    I spent 4 years in the Western Pacific on a destroyer, and 
then as the aide at 7th Fleet, so I am familiar with the area, 
and what is most striking is the large distances that have to 
be covered. And I want to focus today especially on our 
challenges to do with logistics based off of those large 
distances in the Pacific.
    And our current Navy logistics enterprise is based on the 
ability to deliver fuel, parts, supplies in an uncontested 
environment. So I appreciate that you also see this as a 
vulnerability in your comments that you provided in preparation 
for this hearing.
    While China continues to develop weapons such as the DF-26, 
they have called it the ``Guam killer,'' which gives you an 
idea of the range and what they could intend to use that for, 
that threaten our ability to deliver logistics from the six 
bases we have relied on for more than 50 years. But we really 
haven't changed our tactics, our procedures with regards to 
logistics, and practiced those very recently, such as console 
ops [operations] with our TAOs [tactical action officers] in 
theater for about a decade.
    So do you see logistics as an Achilles heel in the Pacific 
theater?
    Admiral Davidson. Certainly advancements with our logistics 
tactics, so to speak, is important going forward. We actually 
have done some console ops here in the last 5 years. We just 
concluded the Pacific Blitz exercise as well, which merges 
essentially what was a tactical exercise and a logistics, both 
Navy and Marine Corps exercises to exercise that capability.
    Clearly, recapitalization of our sealift system is going to 
be critically important as it is aging out and really has 
propulsion plants that are, you know, expiring in capability 
and our ability to maintain them.
    Mrs. Luria. I was going to comment on that as well because 
we had the opportunity to hear from Admiral Buzby as the 
Maritime Administrator, as well as from U.S. TRANSCOM [U.S. 
Transportation Command]. And we focus within the Seapower 
Subcommittee as well on the age of the, you know, sealift 
fleet.
    And, you know, on any given day, if, say, 50 percent of the 
sealift fleet were unavailable, what kind of impact would that 
have? Because when we were briefed, that was basically what was 
available--unavailable at a snapshot in time. What would that--
what impact would that have on your most limiting OPLAN and 
ability to carry that out within the theater?
    Admiral Davidson. It is risk to our troops and all of our 
people that are forward in the region, if there is any delay in 
our ability to deliver the logistics in accordance with the 
OPLANs.
    Mrs. Luria. And going back to the console ops and the 
availability of tankers within the region, currently in our MSP 
[Maritime Security Program] program, there are no tankers 
whatsoever. And do you see that as a need in order to execute 
your most pressing OPLAN?
    Admiral Davidson. Yes, ma'am. The Military Sealift Command 
is also exploiting commercial opportunities to do some of these 
things as well.
    Mrs. Luria. And lastly, many of our ships in the theater 
have only relied on shore infrastructure, such as in Guam and 
Yokosuka and Sasebo and different areas around the theater. Are 
you taking any actions to harden that shore infrastructure or 
provide additional defenses for it to make sure that we can 
maintain the logistics necessary to carry out our two, you 
know, principal OPLANs within the area?
    Admiral Davidson. Yeah. Certainly there are defensive 
capabilities in Guam I would like to see improved. You know, we 
are using a mobile system right there now with THAAD on the 
ground as well as ship support from the threats that are 
exigent.
    I think in the future, we are going to need a more robust 
fixed site there so that our mobile sites can then be employed 
to use--to support our expeditionary logistics and other basing 
needs around the region.
    Mrs. Luria. And I will wrap up by asking you the same 
question that I have asked all combatant commanders who have 
come before us, is on a different note, what percentage of your 
requested carrier presence have you received within the theater 
over the last 2 years?
    Admiral Davidson. About 70 percent.
    Mrs. Luria. Well, thank you. And as I am the last to go 
today, I wanted to thank you all again for taking the time to 
brief us and help us be more informed on a decision-making 
process throughout the budget process. Thank you.
    The Chairman. Thank you very much.
    And thank you, gentlemen. Appreciate your testimony 
answering questions. We are adjourned, and we will reconvene in 
2212 as soon as we can get up there.
    [Whereupon, at 12:15 p.m., the committee proceeded in 
closed session.]


      
=======================================================================


                            A P P E N D I X

                             March 27, 2019

=======================================================================

     
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 27, 2019

=======================================================================

      

                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Please explain the significance of the implications 
to trade flows, commercial activity, and the financial information that 
flows on cables under the South China Sea if China were to control and 
limit the freedom of open seas and access there. What would be the 
military and security implications for the Indo-Pacific Command and for 
the region at large?
    Admiral Davidson. Undersea cables are absolutely critical to global 
economic and security interests. They carry an estimated 95-99% of data 
worldwide, which supports global commerce, banking, telecommunications, 
and more. Twelve major cable systems in the South China Sea connect 
Southeast Asia with Northeast Asia, and Asia to the Middle East, 
Europe, and the United States. All of these cables run through the 
portion of the South China Sea claimed by China, and many are near 
China's military outposts on the Spratly Islands. Many also have 
terrestrial cable landing points in China. Any disruption to the 
cables, even for just a few hours, would cause a massive disturbance to 
worldwide data flows, with the effects most pronounced between Asia's 
financial and business centers and their counterparts in Europe and the 
U.S. Any outage could also impact U.S. and allied battle space 
awareness, communications, and coordination, as the military uses some 
of these same carrier systems. While we have backup systems available, 
the impacts to efficient and timely decision making would likely be 
severe.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. The INDOPACOM region remains one of the most natural 
disaster-prone areas in the world, and I am concerned that our bases 
and installations in the region may not be appropriately postured for 
the threat posed by climate change. How do you believe climate change 
has impacted this region as well as your foreign humanitarian 
assistance operations?
    Secretary Schriver. The effects of a changing climate are a 
national security issue with potential impacts to Department of Defense 
missions, operational plans, and installations. Specifically, the 
Department has identified the negative consequences of climate change 
as a prevalent transnational challenge in the Indo-Pacific.
    The region is already prone to earthquakes and volcanoes as part of 
the Pacific Ring of Fire, and suffers regularly from natural disasters 
including monsoons, hurricanes, and floods to earthquakes and volcanic 
activity. The Department works to ensure installations and 
infrastructure are resilient to a wide range of challenges, including 
climate and those other environmental considerations. DOD considers 
resilience in the installation planning and basing processes to include 
impacts on built and natural infrastructure. This includes 
consideration of environmental vulnerabilities in installation master 
planning, management of natural resources, design and construction 
standards, utility systems/service, and emergency management 
operations. Our military installations have extreme weather plans and 
Commanders are encouraged to work with local communities to address 
shared issues regarding environmental impacts.
    United States Indo-Pacific Command (USINDOPACOM) focuses their 
training on readiness to respond to and be resilient to natural 
disasters, as well as sustainable resource management toward critical 
resources scarcity. This command has also established Pacific 
Augmentation Teams around its Area of Responsibility to identify 
quickly immediate needs that can be met with military assets.
    Mr. Langevin. How are you ensuring that countering violent 
extremism activities in your AOR do not perpetuate and aggravate the 
underlying conditions that so often lead to extremism?
    Admiral Davidson. As we work to advise and assist our Indo-Pacific 
partners and build their capacity to counter violent extremism, we also 
emphasize the importance of understanding and addressing conditions 
that lead to instability and extremism. Effective partnering with the 
interagency and prioritizing of security relationships at the local 
level play critical roles in the development of comprehensive counter 
violent extremism activities that also address the conditions that 
fostered violent extremism in the first place.
    Mr. Langevin. How are you working with the interagency on programs 
that address the underlying conditions of terrorism?
    Admiral Davidson. USINDOPACOM is addressing the underlying 
conditions of terrorism in the Indo-Pacific region with a comprehensive 
approach utilizing the unique capabilities, relationships, and 
expertise from across the entire interagency in a united effort. Since 
the launch of the USINDOPACOM Multi-National Engagement Program in 
2012, USINDOPACOM has implemented dozens of interagency programs that 
leverage military, law enforcement, and other interagency subject 
matter experts along with our partner nations' agency equivalents. One 
recent example of these training and information exchange programs' 
impact is the Indonesia, Philippines, and Malaysia agreement on 
patrolling shared maritime borders, named the Trilateral Cooperation 
Agreement (TCA), signed in 2016. The TCA provides a vessel to deploy a 
combined force of sea marshals to deter and combat terrorist 
organizations such as Abu Sayyaf and the Islamic State. Additionally, 
we worked with interagency partners and their host-nation counterparts 
in India, Brunei, and the Philippines to increase their understanding 
of terrorism indicators. We accomplished this through workshops focused 
on information sharing and multinational cooperation required to 
interdict terrorist planning and recruiting cycles. These programs, and 
many others like them, demonstrate USINDOPACOM's whole-of-government 
commitment to working with our allies and partners to counter violent 
extremism and address the underlying conditions that lead to terrorism.
    Mr. Langevin. How is the U.S. military's relationship with the 
Philippine Security Forces complicated by the recent decision of the 
Philippine Government to withdraw from the International Criminal Court 
amid serious human rights abuses allegedly conducted primarily by the 
National Police?
    Admiral Davidson. The U.S. military follows stringent vetting 
requirements required by the Leahy Law, which restricts funding for any 
unit or individual credibly implicated in gross violations of human 
rights. When working with Philippine Security Forces (to include the 
Philippine National Police), U.S. Indo-Pacific Command follows all 
legal requirements and ensures units are cleared through Department of 
State review. The Government of the Philippines decision to withdraw 
from the International Criminal Court in March 2019 will not impact the 
Leahy vetting procedures.
    Mr. Langevin. The INDOPACOM region remains one of the most natural 
disaster-prone areas in the world, and I am concerned that our bases 
and installations in the region may not be appropriately postured for 
the threat posed by climate change. How do you believe climate change 
has impacted this region as well as your foreign humanitarian 
assistance operations?
    Admiral Davidson. The Department plans for many variables to 
account for potential impacts on our defense missions, installations 
and operations, including the effects of a changing climate and other 
factors. Climate change has raised concerns about potential impacts to 
military installations on Guam, Kwajalein Atoll in the Republic of 
Marshall Islands, and Kaneohe Bay in Hawaii. Working with the National 
Oceanic and Atmospheric Administration, DOD expects to complete a study 
in the next two years that will help us better understand how to 
analyze the vulnerabilities of military installations to the effects of 
a changing climate. Extreme weather events occur frequently in the 
Indo-Pacific compared to other regions of the world. The impact 
generally depends on the frequency, timing, and severity of the event. 
Any resulting widespread human suffering, food and water shortages, and 
extensive power outages could serve as precipitating events for 
regional instability, if not properly managed. Historically, DOD has 
supported about 10% of USG disaster responses led by USAID each year. 
Factors of whether USAID requests DOD unique capability and support 
include disaster type and extent, civil capacity in the host nation, 
and the international response. Through its humanitarian assistance 
program, DOD assists building partner nation civil capacity for 
disaster preparedness and public health. Countries in INDOPACOM area 
continue to improve capacity for domestic and regional disaster 
response.
    Mr. Langevin. Last year I was happy to see INDOPACOM begin close 
coordination with the Global Engagement Center by embedding a GEC 
officer at your command to help counter state and non-state propaganda. 
Can you tell us how this embedded officer has helped your command and 
give us and update on how Web Operations and other Inform and Influence 
activities benefited from GEC collaboration?
    Admiral Davidson. Our Global Engagement Center (GEC) embedded 
officer has played a vital role in enabling a whole of government 
approach to counter malign influence and propaganda in the Indo-
Pacific. This officer facilitated significant command contributions to 
the GEC's flagship communications campaign to counter state propaganda, 
enabled rapid response coordination between the command and GEC 
headquarters, and helped establish a new team responsible for more 
effective employment of command strategic communication tools in the 
pursuit of national security objectives. With regard to Web Operations, 
this officer is creating a pilot DOD-State Web Operations coordination 
process that will improve U.S. government efforts to counter state 
propaganda and disinformation. I view this as a critical first step to 
leveraging these important tools in the Indo-Pacific.
    Mr. Langevin. The INDOPACOM region remains one of the most natural 
disaster-prone areas in the world, and I am concerned that our bases 
and installations in the region may not be appropriately postured for 
the threat posed by climate change. How do you believe climate change 
has impacted this region as well as your foreign humanitarian 
assistance operations?
    General Abrams. Extreme weather events and the shifting of tidal 
patterns and coastlines are impacting communities throughout the Indo-
Pacific region. The region is home to over half of the world's 
population, and most of these people reside on, or very near the 
coastlines. When an extreme weather event occurs, this geographic 
vulnerability makes the situation more dire. On the Korean Peninsula, 
several challenges face our armed forces. Increased rainfall and 
flooding place low-lying areas at risk, while rising sea levels 
endanger populations and infrastructure along the extensive shorelines. 
Additionally, regional drought has potentiated fire hazards in heavily 
forested mountainous regions. For example, a national emergency was 
declared in early April in response to a wildfire in South Korea's 
northeast Gangwon province. The fire spread rapidly to become one of 
the nation's largest forest fires in modern history. The ROK government 
requested and received the assistance of USFK forces due to unique U.S. 
capabilities. And finally, increased airborne dust and pollution 
carried from China and Mongolia creates unique respiratory problems 
across the peninsula. As a result, USFK has implemented Command Policy 
Letter #10, allowing for the elective use of filtering masks while in 
uniform to further protect service members during elevated particulate 
air pollution levels. Extreme weather events such as tropical storms, 
typhoons, thawing of permafrost, tsunamis, and drought affect millions 
of people in the Indo-Pacific region annually and cause billions of 
dollars in damages. The impacts of these events can be catastrophic, to 
include the destruction of buildings, critical infrastructure, crops, 
and livestock. While we cannot prevent natural disasters, our 
preparedness can build resiliency and capacity to help reduce the 
costs, damages, and loss-of-life that these events inflict. When these 
events occur, the U.S. military has surged relief to those affected, 
and USFK stands ready to support USINDOPACOM in the event humanitarian 
assistance, disaster response, and civic assistance becomes necessary.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. What is your assessment on what China's no first use 
policy is today and what it might be in the future given the build-up 
of their ballistic missiles?
    Secretary Schriver. China has long maintained a no first use 
policy, though ambiguity remains over the conditions under which 
China's NFU policy would no longer apply. China's future intent may 
shift as it fields larger, more-capable nuclear forces as part of its 
nuclear modernization program. Some PLA officers have written publicly 
of the need to spell out conditions under which China might need to use 
nuclear weapons first--for example, if an enemy's conventional attack 
threatened the survival of China's nuclear force or the regime itself. 
However, there is no indication that national leaders are willing to 
attach these caveats at present.
    Mr. Rogers. What are our partners and allies position on no first 
use in the context of a declaratory policy? Specifically the ROK and 
Japan's positions?
    Secretary Schriver. U.S. extended deterrence is an integral part of 
our alliance commitments to the Republic of Korea (ROK) and Japan, and 
both allies appreciate the ironclad U.S. security guarantee. Both the 
ROK and Japan were consulted extensively during deliberations leading 
to the 2018 Nuclear Posture Review. Each understands that the United 
States would only employ nuclear weapons in extreme circumstances to 
defend the vital interests of the United States and its allies and 
partners. In our view, adoption of a no-first-use policy would be 
deeply concerning to many of our allies and partners by suggesting the 
United States would not use the full means at its disposal to deter and 
respond to devastating, non-nuclear strategic attacks against them.
    Mr. Rogers. What is your assessment on what China's no first use 
policy is today and what it might be in the future given the build-up 
of their ballistic missiles?
    Admiral Davidson. China continues to assert a ``no first use'' 
policy for its nuclear forces, maintaining that China will only use 
nuclear weapons in response to a nuclear strike against it. However, as 
identified in the 2018 Nuclear Posture Review, China's lack of 
transparency regarding the scope and scale of its nuclear modernization 
program raises questions regarding its future intent. Ongoing 
modernization efforts across its nuclear force include developing sea-
based weapons, improving road-mobile and silo-based weapons, and 
testing hypersonic glide vehicles. China has also announced its intent 
to form a nuclear triad by developing a nuclear-capable, next-
generation bomber.
    Mr. Rogers. What are our partners and allies position on no first 
use in the context of a declaratory policy? Specifically the ROK and 
Japan's positions?
    General Abrams. The United States maintains Mutual Defense Treaties 
with both the Republic of Korea and Japan. USFK, in coordination with 
USFJ and USINDOPACOM, remains committed to deterring, defending, and if 
necessary, defeating any adversary that threatens those alliances. USFK 
also maintains open communication with the U.S. Department of State to 
coordinate policy matters impacting military activities and instruments 
of national power. Our strategic forces serve several purposes. They 
are designed and sustained to deter unconventional attacks or 
conventional attacks, assure allies and partners, achieve U.S. 
objectives if deterrence fails, and serve as insurance in an 
unpredictable future. Given the contemporary threat paradigm in 
Northeast Asia, some level of strategic ambiguity can be beneficial to 
maintaining security. Our triad remains in a constant state of 
readiness to provide political leaders with options and continuous 
strategic deterrence. The Republic of Korea and Japan, along with our 
NATO partners, have long stood by our decision against a No First Use 
declaration. Should this policy change, I am confident that our allies 
in Asia would continue to support our alliances and the principles upon 
which they were formed. If called upon, USFK stands ready to provide 
its best military advice concerning the security situation in Northeast 
Asia, and all military options available to senior political leaders.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Secretary Schriver, what were the costs to the 
Department in fiscal years 2017 and 2018 for joint U.S.-Republic of 
Korea military exercises? And what are the projected costs to the 
Department in fiscal year 2019 for the rescoped U.S.-Republic of Korea 
military exercise program? For each fiscal year, please include a 
listing of each exercise with its associated cost. For each exercise, 
please include a description of the elements of each exercise, the 
direct costs to USFK, and a description of additional costs incurred by 
each service component.
    Secretary Schriver. The President has consistently stated that he 
expects prosperous allies and partners to contribute more to their own 
defense and for supporting U.S. forces abroad. The recent U.S.-Republic 
of Korea (ROK) Special Measures Agreement includes a roughly 8 percent 
increase in contributions and allows GEN Abrams to use such funds for 
exercise support. Although it is difficult to gather data to associate 
elements of each exercise with direct costs, in 2019, exercise DONG 
MAENG cost US$12.9 million and is expected to cost US$19 million in 
2020. In contrast, KEY RESOLVE/FOAL EAGLE, the previous iteration of 
DONG MAENG, cost US$22 and US$25 million, in 2017 and 2018, 
respectively.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. We've talked a lot about cyberwarfare, we have seen 
the establishment of U.S. Cyber Command, and maturing our cyber forces 
across the Department. And while most of our cyber forces are fully 
capable on paper, they are not fully ready in practice. All DOD 
missions and systems remain at-risk from adversarial cyber operations. 
The Department continues to discover mission-critical vulnerabilities 
in acquisition programs, and uncover massive data breaches of cleared 
defense contractors.
    When you think about cyber, what concerns you most with respect to 
the threat being posed by China? Please address our own limitations, 
but also any concerns from an adversarial standpoint as well. What are 
we doing to deter cyber activities below the threshold of war? Do you 
have the forces and authorities you need as a combatant commander?
    Secretary Schriver. China views cyber as a critical domain that 
enables information superiority and an effective means of countering a 
stronger foe. We're concerned that the PLA's writings emphasize the 
benefits of information operations and cyberwarfare in recent conflicts 
and have advocated targeting an adversary's logistics networks as well 
as their command and control in early stages of a conflict. China may 
also combine its cyber and kinetic attacks to act as a force 
multiplier. We are also concerned by continued China-based cyber 
intrusions that seek to extract sensitive information from our defense 
industrial base sectors, which threatens to erode our military 
advantages.
    Ms. Stefanik. We've talked a lot about cyberwarfare, we have seen 
the establishment of U.S. Cyber Command, and maturing our cyber forces 
across the Department. And while most of our cyber forces are fully 
capable on paper, they are not fully ready in practice. All DOD 
missions and systems remain at-risk from adversarial cyber operations. 
The Department continues to discover mission-critical vulnerabilities 
in acquisition programs, and uncover massive data breaches of cleared 
defense contractors.
    When you think about cyber, what concerns you most with respect to 
the threat being posed by China? Please address our own limitations, 
but also any concerns from an adversarial standpoint as well. What are 
we doing to deter cyber activities below the threshold of war? Do you 
have the forces and authorities you need as a combatant commander?
    Admiral Davidson. China possesses significant cyberspace 
capabilities that go well beyond the basic intelligence collection 
against U.S. diplomatic, economic, and defense industrial base sectors. 
People's Liberation Army writings advocate targeting an adversary's C2 
and logistics networks to affect its ability to operate during early 
stages of a conflict. I remain concerned that China will continue to 
use its cyberspace capabilities for intelligence and cyberattack 
purposes, serving as a force multiplier for its other activities short 
of armed conflict, and constrain adversary actions by holding vital 
networks at risk. Additionally, I have concerns about the U.S. 
government's ability to recruit and retain the skilled cyberspace work 
force necessary to counter these threats. Below the threshold of armed 
conflict, China continuously operates in and through cyberspace to 
achieve strategic advantage. USINDOPACOM collaborates and shares 
information with a broad array of partners in order to build 
situational awareness and enable a proactive posture to defeat 
malicious cyber activity at the source. Additionally, USINDOPACOM 
supports a whole of government approach to impose costs in response to 
malicious cyber activity. With respect to cyber forces, I believe the 
effective support relationships between USINDOPACOM, USCYBERCOM, and 
the services deliver sufficient capacity to address requirements in the 
Indo-Pacific. Regarding authorities, USINDOPACOM continues to work with 
USCYBERCOM through the process to delegate cyberspace authorities from 
the President to the Secretary of Defense, which will enable time-
relevant operations. Additionally, USINDOPACOM works to maintain a 
competitive advantage in cyberspace through effective partnerships with 
the interagency, international partners, the defense industrial base, 
and private sector critical infrastructure. I believe I have the 
necessary authorities to continue building on these endeavors to 
improve our posture in cyberspace.
    Ms. Stefanik. We've talked a lot about cyberwarfare, we have seen 
the establishment of U.S. Cyber Command, and maturing our cyber forces 
across the Department. And while most of our cyber forces are fully 
capable on paper, they are not fully ready in practice. All DOD 
missions and systems remain at-risk from adversarial cyber operations. 
The Department continues to discover mission-critical vulnerabilities 
in acquisition programs, and uncover massive data breaches of cleared 
defense contractors.
    When you think about cyber, what concerns you most with respect to 
the threat being posed by China? Please address our own limitations, 
but also any concerns from an adversarial standpoint as well. What are 
we doing to deter cyber activities below the threshold of war? Do you 
have the forces and authorities you need as a combatant commander?
    General Abrams. There is compelling documentation from the U.S. 
security industry and other sources related to China's intent to use 
their advanced capabilities to acquire proprietary information through 
cyberspace operations. The theft of intellectual property not only 
reduces the competitive advantage of American companies but also 
undermines and erodes our technological advantages. This problem is 
compounded by the broad attack surface of thousands of networks 
distributed across the defense industry and U.S. government, all 
operating under different policies and with varying degrees of 
information security. China's policy goals, along with current geo-
political and trade tensions, favor the assessment that cyber espionage 
will remain a core component of Chinese competition. These malicious 
cyber activities, taking place below the threshold of war, are 
countered with an active defense policy. Defense professionals respond 
to unauthorized activity or alerts/threat information against DOD 
networks, and leverage intelligence, counterintelligence (CI), law 
enforcement (LE), and other military capabilities as required. Internal 
defensive measures include mission assurance actions to dynamically 
reestablish, re-secure, reroute, reconstitute, or isolate degraded or 
compromised local networks to ensure sufficient cyberspace access for 
U.S. and alliance forces. CYBERCOM is an active and partner in 
providing robust forces, such as direct support via the Joint Cyber 
Center and as part of the Cyberspace Operations-Integrated Planning 
Element (CO-IPE). CYBERCOM is fully integrated into USFK and the 
USCYBERCOM CDR is on record as having all the required authorities to 
carry out their mission in support of USFK and INDOPACOM.
    Ms. Stefanik. General Abrams, can you tell us more about the recent 
U.S.-South Korea ``Dong Maeng'' exercise? Did the exercise meet the 
intent for strategic, operational, and tactical operations previously 
practiced in Key Resolve and Foal Eagle? And to what extent does ``Dong 
Maeng'' engage in multiple-domain operations to include space and 
cyber? Lastly, what is the significance of discontinuing massive 
exercises, like Ulchi-Freedom Guardian, Key Resolve and Foal Eagle 
based on good faith with North Korea? How does that impact our overall 
readiness in the region?
    General Abrams. The suspension of large-scale exercises coincident 
with senior-leader engagements in 2018 was a prudent action in support 
of diplomacy. Following those suspensions, we have worked to modify our 
exercise design and execution to maintain readiness through combined 
training and exercises while preserving space for ongoing diplomacy. To 
achieve this balance, we have adjusted four dials--size, scope, volume, 
and timing--resulting in the 2 March 2019 Alliance decision to conclude 
legacy exercises in favor of maintaining our Fight Tonight posture 
through the regular conduct of Field Training Exercises (FTX), paired 
with newly-designed, operational and theater-level Command Post 
Exercises (CPX). What is unchanged is the readiness and posture of our 
forces to act as a strategic deterrent postured to respond to potential 
crisis or provocation, and if called upon, ready to defend the Republic 
of Korea and our allies in the region. Our spring CPX, DONG MAENG 19-1 
(DM 19-1) took advantage of changes to these four dials in order to 
balance readiness while preserving space for diplomacy. CFC/USFK 
effectively used DM 19-1 to train 14 of 14 warfighting Mission 
Essential Tasks, displaying our Alliance strength and commitment. These 
events, including the DM 19-1 CPX, also include multi-domain and gray 
zone scenarios. To safeguard CFC/USFK military readiness, we will 
continue to pursue our robust FTX schedule.

                                  [all]
</pre></body></html>
